<html>
<title> - S. 919, THE DEPARTMENT OF INTERIOR TRIBAL SELF-GOVERNANCE ACT OF 2013</title>
<body><pre>[Senate Hearing 113-299]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-299
 
 S. 919, THE DEPARTMENT OF INTERIOR TRIBAL SELF-GOVERNANCE ACT OF 2013 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 29, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs


                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-302 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                      0COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 29, 2014.................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Begich......................................    14
Statement of Senator Cantwell....................................     1
Statement of Senator Murkowski...................................     5
Statement of Senator Tester......................................     3

                               Witnesses

Allen, Hon. W. Ron, Chairman/CEO, Jamestown S'Klallam Tribe......    18
    Prepared statement...........................................    20
Isaac, Jerry, President, Tanana Chiefs Conference................    33
    Prepared statement...........................................    35
Peercy, Mickey, Executive Director of Self-Governance, Choctaw 
  Nation of Oklahoma.............................................    36
    Prepared statement...........................................    38
Trahan, Hon. Ronald, Chairman, Confederated Salish and Kootenai 
  Tribes.........................................................    22
    Prepared statement...........................................    24
Washburn, Hon. Kevin, Assistant Secretary--Indian Affairs, U.S. 
  Department of the Interior.....................................     6
    Prepared statement...........................................     7

                                Appendix

Response to written questions submitted by Hon. Jon Tester to 
  Ronald Trahan..................................................    46
Schatz, Hon. Brian, U.S. Senator from Hawaii, prepared statement.    45
Udall, Hon. Tom, U.S. Senator from New Mexico, prepared statement    45


 S. 919, THE DEPARTMENT OF INTERIOR TRIBAL SELF-GOVERNANCE ACT OF 2013

                              ----------                              


                      WEDNESDAY, JANUARY 29, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairwoman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. The Senate Indian Affairs Committee will 
come to order.
    Today we are doing two things. One, having a business 
session on two legislative matters, the re-vote on Vince G. 
Logan to be Special Trustee, Office of the Special Trustee, and 
S. 1448 to provide for equitable compensation to the Spokane 
Tribe of Indians of the Spokane Reservation for the use of 
tribal land. That is legislation that we have had before in 
this Committee and passed out of this Committee and passed out 
of the Senate and the House, just never passed at the same 
time. So we wanted to also give that an opportunity to be 
moved.
    So while we are waiting for members to come, I will go 
ahead and give my opening statement as it relates to both of 
those issues. And then we will see where we are as far as a 
quorum.
    Today, as I said, the Committee is here to consider two 
legislative items and then have a legislative hearing on tribal 
self-governance. We have a real good set of witnesses so I look 
forward to hearing their comments as well.
    But the Committee previously heard from Mr. Logan and the 
Committee reported his nomination to the full Senate before the 
session ended. Mr. Logan's nomination has since been 
resubmitted for this session of Congress and it requires our 
Committee to act again. Hopefully we can act judiciously today 
and enact that.
    The Special Trustee is charged with overseeing the 
Department of the Interior's fulfillment of its trust 
responsibilities to tribes and individual Indians. The Special 
Trustee also implements any necessary trust reforms at the 
Department of Interior and ensures that they are consistent 
with the government's trust responsibility. Mr. Logan has shown 
a great deal of passion for working with tribes and individual 
Indians to manage their trust assets. The Committee appreciates 
his willingness to take on this difficult role.
    The second item, as I mentioned, was S. 1448, the Spokane 
Tribe of Indians of the Spokane Reservation Equitable 
Compensation Act. A version of this bill has been considered 
previously by this Committee and some more versions have passed 
out of the Senate and the House. So I am hopeful that in this 
Congress this issue can finally be put to rest.
    I originally introduced a version of this bill along with 
my colleague from Washington, Senator Murray, on September 10, 
2013, and the Committee held a legislative hearing receiving 
testimony from both the Spokane Tribe and the Administration 
supporting this bill. The bill would compensate the Spokane 
Tribe for past and future use of land by the United States for 
operation of the Grand Coulee Dam. And today the tribe has only 
received $4,700 since the government flooded 1,000 acres of 
Spokane tribal lands to construct and operate this dam. This 
bill will finally provide the tribe with the equitable 
compensation for their use of land.
    I will be offering an amendment in the nature of a 
substitute today that addresses how the annual payments to the 
tribes will have no effect on current ratepayers. But before we 
get to that, I might ask my colleague, the Vice Chairman of the 
Committee, if he has any opening statements or comments that he 
would like to make.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Just briefly. Thank you. Today we are 
going to be considering your bill, the Spokane Equitable 
Compensation Act, I know this is very important to you and to 
the Spokane Tribe. So I appreciate you and your staff 
continuing to work diligently to address the issues of the 
bill, especially the cost. Thank you for that.
    We are also going to consider the nomination of Mr. Logan 
as Special Trustee. This position is important to the Federal 
Government in carrying out its trust responsibility and Mr. 
Logan's strong financial background, I believe, is going to 
serve him well. If confirmed as Special Trustee, his experience 
will be needed to help improve the Indian Trust Administration. 
So again, I thank you for your leadership on both these 
important matters.
    The Chairwoman. Great. Thank you for that. I don't know if 
any of my colleagues have anything else they want to comment 
on, questions for staff?
    Senator Barrasso. If I could, Madam Chair, just before I 
relinquish my time, this business meeting and this hearing may 
be the final one with you as Chair of this Committee, I 
understand. So before I yield, I just want to state that it 
really has been a privilege for me to serve with you on this 
Committee and in this capacity. So I am hoping you remain with 
us at least on the Committee. I am honored that I could serve 
with the first woman to chair this Committee. You have set an 
incredible standard for the Committee by providing clear, 
competent and collegial leadership.
    I also want to compliment your entire staff for working 
closely with mine on matters before the Committee. So thank you 
for the cooperation. It has come wonderfully. If your time 
happens to be cut short as chair for good reason, I wish you 
the very best in your new endeavors, whatever they may be, and 
extend a heartfelt thanks to you for your diligent work in 
improving the lives of Indian people. Thank you, Madam Chair.
    The Chairwoman. Thank you. I want to thank the Vice Chair 
for his leadership. I may be, what, the third member you have 
worked with as ranking member? So I guess that says that we are 
leaving a great deal up to you for continuity with the 
Committee. And thank you for your comments.
    I do believe this may well be my last hearing to chair as 
Chair of this Committee. And I have to say it is with great 
regret that I leave this position. Because it has only been a 
short tenure here. And I have a great deal of passion for 
Indian Country and the issues that affect them.
    So I am definitely not leaving the Committee and I am not 
leaving that passion. I am just turning the reins over to a 
very qualified member of our Committee, Senator Tester, who I 
am very excited, after being in Montana this summer, he and I, 
visiting a lot of Indian Country, I am very excited to have him 
take on this new role and responsibility. I am just going to 
double my efforts in working with all of you on these important 
issues, because there is still a lot to do.
    I certainly want to thank my staff, because they have 
worked hard on a variety of issues this year and have put forth 
a variety of ideas. We appreciate that. Indian Country has 
continually changed and improved in providing for new economic 
opportunities for themselves and the communities around them. 
That is what we are excited about and we want to keep working 
to preserve those economic opportunities moving forward. So I 
know there is a lot to do on that.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I just want to echo the ranking member's 
appreciation for your leadership and your vision for this 
Committee. I too hope that you stay on this Committee and 
remain a valuable contributor to the conversation. Because I 
think you have been great in the position of Chairman and the 
poor soul that has to follow you has to live up to those 
expectations.
    So we thank you for your leadership and your vision.
    The Chairwoman. Thank you. I appreciate that very much.
    As I said, my heart is definitely heavy here, because I 
have a great deal of passion for these issues and representing 
29 different organizations from our region, these are very, 
very important issues. We just have to keep pushing ahead.
    I think we are one member short of the quorum that we need 
to move out these two nominations and hopefully someone is on 
their way to do that, on either side of the aisle. If I could, 
I think I am just going to go ahead and read my opening 
statement while they are here on the legislative hearing to 
follow, which is, many of my colleagues know that the 
importance of tribal self-governance has been a big issue for 
this Committee. We are going to be hearing about the Tribal 
Self-Governance Act of 2013.
    S. 919, I think everybody understands the importance of the 
Self-Determination Act of 1975, because the Act provided a 
shift in the way the Federal Government provides services in 
Indian Country, providing tribes with the authority to take 
over those services and tailor them to meet their communities. 
The self-governance provisions that have been added over the 
past 25 years have provided tribes with greater flexibility and 
control of how Federal funds are used in their communities and 
tribal control of these programs provided greater job 
opportunities and better services for tribal members.
    We have not always had great success in improving 
conditions in Indian Country over the years, but I think it is 
safe to say that the policies of self-determination and self-
governance have been the most successful policies in U.S. 
history in dealing with tribal governments. I am sure we are 
going to hear more about that today.
    Self-governance began with only seven tribes in 1991, now 
over half of all federally-recognized tribes have self-
governance agreements with the Department of the Interior for 
Indian Health Services. These 300 tribes are utilizing over 
$400 million in Federal funding to provide services to their 
communities. While the programs have been successful, there are 
always improvements that can be made.
    So S. 919 is the culmination of discussions between tribal 
leaders and the Department of the Interior and other 
stakeholders that would streamline the self-governance process. 
Currently tribes must use different negotiation processes for 
the Department of the Interior and Indian Health Services. S. 
919 would make that a similar process.
    This bill has many other common sense provisions relating 
to the negotiation process, such as negotiating in good faith, 
timelines on decision-making, providing specific reasons that 
the Secretary of the Interior can decline the self-governance 
compact or funding agreement. The Department of the Interior 
testified in support of similar legislation in the House in the 
last Congress, so I am eager to hear their thoughts on this 
bill and how it continued to evolve and hear concerns by both 
the tribes and the Administration.
    I also want to thank our tribal witnesses for testifying 
today. They represent tribes and tribal consortiums that have 
been participating in self-governance for 20 years. So 
certainly they have been the pioneers in this particular area. 
I know that they can continue to suggest how we improve the 
self-governance program as well.
    I particularly want to thank Chairman Ron Allen of the 
Jamestown S'Klallam Tribe, a real leader in the self-governance 
movement. And I appreciate his traveling all this way to be 
here for these discussions as well.
    We will look forward to hearing from all of these members, 
including the Honorable Ron Trahan from the Confederated Salish 
and Kootenai Tribes in Montana and Jerry Isaac, President of 
the Tanana Chiefs Conference, a consortium of Alaska Native 
villages. And finally, we will hear form Mickey Peercy, the 
Executive Director of self-governance for the Chocktaw Nation 
of Oklahoma.
    So again, I just want to say in advance of that part of our 
hearing today that we will get to you in just a second.
    [Whereupon, the Committee proceeded to other business:]
    The Chairwoman. So now we are going to back to the hearing. 
And I don't know if any of my other colleagues want to make an 
opening statement. I mentioned the individuals that we are 
going to be hearing from. In the first panel, we are going to 
hear from Kevin Washburn. So if Kevin can come up to the table 
for his part, and then I mentioned the names of those who will 
be on the second panel. Do any of my other colleagues want to 
make a statement? Yes, Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madam Chairman. I will be 
brief here. I want to thank you for scheduling the hearing 
along with the Vice Chairman here.
    Indian self-determination has been in my mind the most 
successful Federal Indian policy, given the difficult history 
that our Nation's indigenous people have had with the policies 
here in the United States. When our tribes can manage their own 
programs, I think they are better equipped to address the 
disparities that exist within our Native populations.
    I am pleased to be a co-sponsor of the bill. In Alaska, we 
continue to experience the failed management of our lands from 
thousands of miles away by Federal agencies here in D.C. Many 
of our Native communities live right next to and within the 
boundaries of our public lands, our national parks and our 
wildlife refuges.
    I have stated as the ranking member on the Energy and 
Natural Resources Committee that I would like to see self-
governance agreements supported and expanded by the 
Administration. In Alaska, the Department of Interior has the 
authority to use self-governance agreements to contract out 
many operations, functions with tribes at nearly all of the 
public land units in the State. And yet we only have two of 
these in existence.
    So I have called on the National Park Service and U.S. Fish 
and Wildlife, to recommit themselves to advocating and 
advancing these agreements which not only help Alaska Natives 
connect with their land but be part of subsistence management. 
I understand that this bill preserves the authority of the 
Secretary of the Interior to authorize the inclusion of non-BIA 
programs and contracts and funding the agreements, local 
management really means that our tribes can continue to 
practice their customary and traditional hunting and fishing.
    I would also like to make a special note and welcome 
President Jerry Isaac of the Tanana Chiefs Conference. He has 
termed out as president of TCC in March. Jerry, I would just 
like to publicly thank you for your dedication, for your 
commitment, for your leadership for the Tanana Chiefs region. I 
have always valued your guidance and wisdom and know that you 
will continue in that.
    So we are pleased to have him here before the Committee 
today. Thank you, Madam Chair.
    The Chairwoman. Vice Chairman Barrasso?
    Senator Barrasso. Thank you, Madam Chairwoman. I just want 
to thank you for holding this hearing. The 1975 Act enacted by 
Congress, the Indian Self-Determination and Education 
Assistance Act, designed to advance a more effective dynamic 
for Federal tribal relations. Since then, there have been 
improvements in both the Federal tribal relationship and the 
delivery of service. I think it is important that today we 
consider S. 919, which I have co-sponsored with you.
    This bill is intended to build upon those improvements, 
enhance the delivery of services. It is the product of many 
years of work by the tribes, by the Administration, by 
Congress. I look forward to hearing how this bill addresses the 
interests of stakeholders and improves services.
    Thank you, Madam Chairwoman.
    The Chairwoman. Thank you.
    I want to add an addendum to my previous comments. It 
certainly has been an honor working with you as the Vice 
Chairman of this Committee. And it has been a smooth working 
process. I appreciate your staff and the collaboration between 
our offices. So I can definitely say that Indian Country has 
had a good partner in working through your office. So we 
certainly appreciate working with you in the future on this 
Committee.
    So thank you. We decided that we both had a love for 
``yes.'' And I don't mean just voting aye, but a love for an 
organization that someday will make it into the rock and roll 
hall of fame called yes.
    But anyway, we will now turn to the Honorable Kevin 
Washburn to hear his testimony from the Department of Interior. 
Thank you for being here today as the Assistant Secretary for 
Indian Affairs. If you could just give us your thoughts on 
where we need to go on self-governance.

          STATEMENT OF HON. KEVIN WASHBURN, ASSISTANT 
       SECRETARY--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Washburn. Thank you, Madam Chair, Vice Chairman and 
members of the Committee. It is an honor to be here, as usual, 
thank you.
    Let me echo the thanks, Madam Chair, for your service. It 
is really appropriate that you actually chaired this hearing, 
because the original Self-Determination bill in 1975 was 
sponsored by Scoop Jackson. And Mark Trahant has written a 
terrific little book about the passage of that. So it is nice 
to have someone from the State of Washington, a Senator from 
the State of Washington presiding over this.
    The Chairwoman. If I could just interject, we certainly 
lament the passing of Forrest Gerard, who is featured in that 
book as one of the pioneers of Indian policy here in 
Washington, D.C., and was a great hero. That book talks about 
all that he did to move Indian policy in a new direction. He 
just recently passed, so I wanted everybody to know how 
appreciative we were of his service to our Country.
    Mr. Washburn. Thank you, Chairwoman. That underscores the 
importance of all the staff around the room, because that is 
often who helps get all of this done. So thank you. And his 
passing was tough. He was the first person to have held my job, 
actually, during the Carter Administration, when this position 
was elevated to an assistant secretary position.
    He died over the holidays, and I was able to go out to the 
funeral. It was a sad day, but he was well celebrated and he 
accomplished a lot, not the least of which was turning this 
whole ship of state toward self-determination, which has been, 
as several of you said, the most successful policy toward 
American Indian tribes this Nation has ever had. It was started 
in 1975 with the Indian Self-Determination Education Assistance 
Act, which was updated in 1998, when the self-governance 
demonstration project was created to allow compacts with tribes 
that were broader than just contracts. That was made permanent 
in 1994.
    As you said, Madam Chair, in your opening statement, we 
have a lot of tribes that are now engaged in the self-
governance effort. And frankly, we are doing a lot better job 
meeting the trust responsibility when it is Indian tribes that 
are providing those services directly to their people, rather 
than through Federal officials.
    And I think that is largely because of accountability. 
Tribal leaders are just much more accountable to their 
populations and they know better the needs of their population 
than general schedule Federal employees ever could, even though 
everybody at the BIA and the BIE and IHS and other agencies who 
often have tribes' best interests at heart, they can't ever 
know the tribes' best interests as well as their own elected 
officials do.
    So I believe that that accountability has made this a very 
good regime. I believe it is now time to improve the regime 
even more and I think that is what S. 919 does. So I ask you 
all for your support of S. 919.
    I don't need to go a whole lot deeper than that. I have 
written testimony and I have read the very good testimony by 
each of the other witnesses, some of whom have been at the 
forefront of self-determination and self-governance for a very, 
very long time. I am grateful for their work.
    Aside from accountability, I think the other thing that 
self-governance brings to tribes is flexibility. Tribes need 
flexibility in how to provide services, and the self-governance 
compacts provide that. And S. 919 will enhance that flexibility 
even more.
    I have a couple of members of my staff here who work really 
hard on these issues, Hank Ortiz and Sharee Freeman. They are 
the ones who work where the rubber meets the road on these 
issues. And we are supportive of S. 919. We are working on some 
little tweaks to the language to address concerns by the IHS 
and Bureau of Reclamation. But we are supportive of the 
legislation overall and certainly the intention of the 
legislation.
    [The prepared statement of Mr. Washburn follows:]

Prepared Statement of Hon. Kevin Washburn, Assistant Secretary--Indian 
                Affairs, U.S. Department of the Interior
    Good afternoon, Chairwoman Cantwell, Vice Chair Barrasso, and 
members of the Committee. My name is Kevin Washburn. I am the Assistant 
Secretary for Indian Affairs at the Department of the Interior 
(Department). Thank you for the opportunity to provide testimony on 
behalf of the Department on S. 919, the Department of the Interior 
Tribal Self-Governance Act of 2013.
    S. 919 seeks to amend both Title I and Title IV of the Indian Self-
Determination and Education Assistance Act (ISDEAA) (25 U.S.C.   450 
et seq.). In more than 200 years of federal Indian policy, the policies 
of self-determination and self-governance that have developed during 
the past four decades have produced, by far, the most successful 
relationship between the United States and its tribes. These policies 
have also increased tribal governmental capacities and improved 
services to Indian people.
    The Administration strongly supports the principles of self-
determination and self-governance, and consistent with this support we 
believe the ISDEAA should be strengthened to make it work better for 
the Federal Government and for Indian tribal governments. Accordingly, 
the Administration supports S. 919.
    President Obama recognizes that federally recognized Indian tribes 
are sovereign, self-governing political entities that have a 
government-to-government relationship with the United States, as 
expressly recognized in the United States Constitution. Secretary 
Jewell, too, is a strong supporter of the principle of tribal self-
determination, the principles of the ISDEAA, and is committed to 
working to further tribal self-governance.
    In 1975, the Congress enacted the ISDEAA, Pub. L. No. 93-638. Title 
I allows a tribe to contract individual programs away from the 
Department and operate the programs as, in essence, tribal programs. 
Title I also gives a tribe the latitude to redesign and rebudget 
Federal programs that it assumes.
    In 1988, Congress enacted Title III of the ISDEAA as a 
demonstration project, which allowed an Indian tribe to contract 
several programs from the Department, and allowed Indian tribes to 
reallocate funds and redesign those programs to best benefit their 
communities. In 1994, Congress made the demonstration project permanent 
in Title IV of the ISDEAA, Pub. L. No. 103-413.
    Title IV provides resources to Indian tribes, enabling them to 
plan, conduct, consolidate, and administer programs, services, 
functions, and activities for tribal citizens according to priorities 
established by their tribal governments. Under Title I and Title IV, 
Indian tribes have greater control and flexibility in the use of these 
funds, reduced reporting requirements, and the authority to redesign or 
consolidate programs, services, functions, and activities. Title I and 
Title IV generally allow Indian tribes to reallocate funds during the 
year and carry over unexpended funds into the next fiscal year without 
Secretarial approval. As a result, these funds can be used with more 
flexibility to address each Indian tribe's unique condition.
    Funding agreements under the ISDEAA have helped to strengthen 
government-to-government relationships with Indian tribes. Self-
determination and self-governance tribes have been good managers of the 
programs they have undertaken. Many times, tribal governments add their 
own resources to the programs and are able to fashion programs to meet 
their needs and the particular needs of their members. Tribal 
governments are often better suited than the Federal Government to 
address the changing needs of their members. Indian tribal governments 
have often observed that, when they are working under self-
determination contracts and self-governance funding agreements, they 
are not viewed by the Federal Government as just another Federal 
contractor, but rather that their work reflects a true government-to-
government relationship characterized by mutually agreed-to 
responsibilities and tribal empowerment.
    For nearly a decade, Indian tribes have asked Congress to update 
Title I and Title IV to address various issues, to include more non-BIA 
programs, and to streamline the process of negotiating annual funding 
agreements. S. 919 goes a long way toward accomplishing these goals. 
Non-BIA programs, however, often have different characteristics that 
suggest a more tailored approach to the specific programs. For example, 
the Bureau of Reclamation uses a methodology in its budget formulation 
that is different from BIA's methodology because of the nature of 
Reclamation's appropriations for large projects. Section 202 of S. 919 
is intended to address those differences, and the Department looks 
forward to working with the Committee to ensure section 202 meets that 
objective.
    The Department recognizes the need for the self-determination and 
self-governance programs to evolve to improve and increase the 
frequency of funding agreements. The Administration is proud to report 
that, after a series of negotiations with tribal stakeholders that 
began over three years ago, we reached agreement on a number of issues 
and the language is embodied in S. 919. Our agreement on this critical 
legislative priority for Indian County reflects the Administration's 
commitment to restore the integrity of the government-to-government 
relationship with Tribal Nations. The Native American communities in 
this country confront many challenges, and this Administration is 
committed to working with Tribal Nations to create opportunities for 
all of our communities to thrive and flourish.
    This concludes my prepared statement. I will be happy to answer any 
questions the Committee may have.

    The Chairwoman. Thank you for that testimony. I do have a 
question for you about various tribes and why it has worked in 
some areas and why others have been more reluctant. But I have 
to ask you about this contract support question, because we had 
a little bit of success in the fiscal year 2014 budget. I want 
to thank my colleague, Senator Murkowski, because she has been 
a loud voice in making sure that our budget reflected not 
having a cap.
    So my question is, does the Department have a plan on how 
it is going to pay contract support costs moving forward since 
there is no longer a cap in place?
    Mr. Washburn. Yes, Madam Chair, we are working on a plan. 
One of the things we need to do, so the process for us now is 
to develop an operating plan that we submit to OMB and then 
back to the Appropriations Committee to explain how we are 
going to operate for the rest of the year on the Omnibus Bill. 
We are wrestling with that, and we are consulting with tribes 
about that. We have a call on Monday, both IHS and the Indian 
Affairs at Interior have a call with tribal leaders on Monday, 
set up by the White House, to consult about that.
    The Administration had rolled out a plan to cap that those 
contract support costs, which was done without any consultation 
with tribes and was soundly rejected by tribes and by Congress.
    The Chairwoman. And the courts.
    Mr. Washburn. Well, sure, and the courts, too in some 
respects.
    So we are trying to figure out how to go forward. Honestly, 
the Appropriations bill punted the issue back to us. They 
basically said, we are not going to adopt caps, and we are 
remanding the issue back to you to figure out how to meet 
contract support costs.
    I personally know how important contract support costs are 
to the ability of tribes to do these jobs that we ask them to 
do. And I think that we would like to get to a place where we 
can provide full contract support cost funding. We think we are 
headed in that direction. But we need to consult with tribes 
about how that will work, and we are anxious to start that and 
then to submit our operating plan and get approval.
    The Chairwoman. The reason I am bringing this up now, I 
certainly want to emphasize the success that we have had, 
thanks again to everybody on this Committee and I think a 
previous hearing trying to escalate the issue with those in the 
Administration to understand the court decision and where we 
have been. Certainly taking off the cap allows for a solution 
to be had. I don't think it is just kicking the problem back, 
saying let's consult. It's basically us saying, let's make sure 
that there is fair compensation.
    The reason I am bringing this up is because I have detected 
some tribes in their discussions and thoughts about self-
governance thinking, well, I like the formula that I have now. 
People are concerned, if they move toward self-governance, are 
they going to get the aid and support, or are you going to have 
another contract support issue come up where you're not getting 
the full compensation to do the job and responsibilities you 
are asked for.
    Do you see that with tribes? Do you think that is why there 
is some disparity with tribes on self-governance issues?
    Mr. Washburn. Yes, Madam Chair. There are a lot of 
different views from the tribes out there about how we handle 
these issues. And we need to hear all of them before we decide.
    The Appropriations Committee, their language that they are 
remanding the issue back to us to deal with, and that is the 
language they put in the report. So we are trying to figure 
that out. We know the tribes need contract support cost 
payments and we work with the Indian Health Service because 
they face the same issue. We have different challenges 
regarding these issues than the IHS has, but we are trying to 
work with them at the request of tribes and their counsel to 
make sure we coordinate with IHS as we address these issues. So 
we will be doing consultation with tribes to figure out how to 
go forward, not just for this year, fiscal year 2014, but also 
as we prepare the FY 2015 budget, which is currently in 
process.
    The Chairwoman. Do you think there are tribes that don't 
move forward on self-governance because they are concerned 
about what that means as far as compensation?
    Mr. Washburn. Yes, Madam Chair. We actually think that once 
it is clear that every tribe gets contract support costs, no 
questions, that we are going to draw more tribes to self-
governance because they can count on that money. And so we have 
to plan for that, too. So we are planning for that in our 
budget process, planning for the notion that maybe there will 
be more tribes that are engaged in self-governance, because 
they can now count on getting contract support costs that they 
need to execute these contracts and operate these contracts.
    The Chairwoman. Thank you.
    Vice Chairman Barrasso?
    Senator Barrasso. Thank you, good to see you again. I 
appreciate your being here.
    The Department of the Interior administers a wide spectrum 
of programs and projects that serve Indian communities. Section 
202 of the bill contains limitations on modifying or affecting 
projects not included in the Indian Self-Determination and 
Education Assistance Act, including water settlements.
    So your testimony suggested that more work was needed on 
this specific provision. I wonder what recommendations you 
might have for us in terms of refining that provision.
    Mr. Washburn. Thank you, Vice Chair. We are working with 
your staff, Senate Committee staff, to try and figure out what 
that language would be. The problem with the language is that 
different lawyers read it to mean different things. We feel 
like we need to get to clarity.
    I think everybody agrees with the long-term intention, 
where we are going with this. But if the lawyers can't all 
agree on what it means, then we need to make it more clear. So 
we are working on that.
    So I don't have specific language for you, but our lawyers 
and your lawyers are talking about trying to clarify that 
language.
    Senator Barrasso. I appreciate that. Just one last 
question. During the 111th Congress, in examining a prior but 
similar bill to this, the Congressional Budget Office thought 
that implementation would cost about a million dollars a year 
over five years. They indicated the department would use that 
extra million dollars for you to hire additional staff, to make 
equipment upgrades.
    Do you see the Administration believing that this 
additional funding is necessary?
    Mr. Washburn. Vice Chair, I am not sure if it is necessary 
or not. But I will tell you, that is a fairly modest investment 
in what has been the most successful Federal Indian policy 
towards tribes ever in our history. So if that is the cost, I 
think it is something that we would be willing to bear.
    We have a really wonderful Office of Self-Governance in the 
Indian Affairs area of Interior, run by Sharee Freeman, who is 
here with me today. She runs a very good staff, and we have 
actually just authorized her to hire two more staff because we 
need to be serving tribes better, we need to be getting money 
out quicker to tribes and that sort of thing under these 
compacts.
    So that office frankly needs to grow a little bit more, 
probably, to help tribes get their appropriations, their money 
quicker, so that they can do the job better. And so we are 
doing a little bit of hiring in that area already.
    I don't know exactly what the costs will be, but if there 
is a modest increase in investment, it is well worth it, I 
believe.
    Senator Barrasso. Thank you. Thank you, Madam Chairwoman.
    The Chairwoman. Thank you. Senator Tester?
    Senator Tester. Thank you, Madam Chair.
    Assistant Secretary Washburn, and I want to welcome the 
members on the next panel, one of which is Chairman Ron Trahan 
from the Confederated Salish and Kootenai Tribes of Montana. 
Thank you for making the long haul here, and we look forward to 
what you have to say.
    Secretary Washburn, we have heard statements from tribal 
leaders that the BIA is more difficult to navigate when 
compared to IHS, when it comes to entering into contracts. 
Could you tell us how S. 919 may better enable the BIA to 
respond to the needs of tribal governments?
    Mr. Washburn. I am not going to respond as to whether it is 
a fair criticism or not, except to note that the Indian Health 
Service has one function, one very important function, which is 
health care. And we have to do everything else, from water and 
irrigation to law enforcement to welfare assistance to housing 
to roads. It runs the gamut, education to realty.
    So we bring different challenges to these issues. I do 
believe that S. 919 will make us function, the tribes prefer 
the way IHS functions to the way we function.
    Senator Tester. Correct.
    Mr. Washburn. And this will make us function more like IHS 
does. And I think that is one of the things that really 
benefits the tribes, because there is some uniformity there. It 
is going to be more difficult than it is for IHS, because we 
have so many more different functions and different kinds of 
activities that we do.
    But I think that it will, if it works better for tribes, 
ultimately it works better for us, because Federal Indian 
policy works better and the services get to the people better. 
So it is going to be a little bit more of a challenge to us, 
but we can live with that.
    Senator Tester. Okay. Looking at it from a tribal 
leadership standpoint, what kind of flexibility will S. 919 
provide tribal leadership as tribes try to assert more home 
rule?
    Mr. Washburn. One of the things it does is it puts much 
more of the onus on the Federal Government to act in a timely 
manner. It puts the onus on us to negotiate in good faith, 
which, there shouldn't have to be a law to say that when we 
negotiate we have to do it in good faith, but it will require 
that. So it doesn't matter who the Administration is, there 
will always be good faith negotiating or presumably a legal 
remedy if there is not.
    So that is sort of the big thing that it helps with. It 
will require us to act in a much more timely way, which 
ultimately will get money to tribes quicker.
    Senator Tester. Beside supporting S. 919, what can you tell 
us that the Obama Administration is doing to help support more 
self-governance in Indian Country?
    Mr. Washburn. Well, the FTEs that I talked about, we are 
increasing the size of that office. And frankly, part of the 
reason we are doing that is because Sharee Freeman, the 
director of that office, when I asked her how can we increase 
the number of tribes engaged in self-governance, she said, I 
need to get on the road. She said she needs to get on the road 
to talk to tribes and to get out to do some evangelizing, do 
some recruiting, basically. But her staff is so thin that she 
can't be away from the office to do that.
    So she has vowed to me that if I can get her more staff in 
the office, she will get out on the road to talk to more tribes 
to tell them the advantages of self-governance and ultimately 
we think that that will improve.
    She has also been working really hard to improve training 
on self-governance issues. We have even sort of been looking 
at, in addition to S. 919, what is the next stage for self-
governance? What does self-governance 2.0 look like? And Ms. 
Freeman has engaged the State Department to see, when we are 
providing aid to foreign countries, how does that work. We have 
been trying to be very creative in trying to figure out what 
the next development of self-governance should be.
    Senator Tester. Do you have the budgetary ability? In other 
words, do you have the dollars to bring some additional staff 
on?
    Mr. Washburn. We are finding ways to accomplish that. 
Mostly stealing from Peter to pay Paul. But this is one of the 
most important things we do. So we need to find the staff to be 
able to fix it.
    Senator Tester. Sounds good. Thank you. I appreciate your 
work.
    Mr. Washburn. Thank you.
    The Chairwoman. Senator Murkowski?
    Senator Murkowski. Thank you, Madam Chairman.
    Welcome, Dr. Washburn. I think you have the problem solved 
here in terms of how this Administration can do more when it 
comes to encouraging tribal self-governance. It goes back to 
the question that the Chairwoman asked in terms of full support 
for contract support costs. You mentioned that if tribes know 
that they can count on this, if they know that they are going 
to be reimbursed fully, if the uncertainty that they have seen 
is eliminated, I am not so convinced that you need to go on the 
road with a staff to try to sell it. I think it will sell 
itself.
    But when you have uncertainty because you don't know 
whether you are going to get that reimbursement, if you think 
that that reimbursement is going to be 70 cents on the dollar, 
you are going to have tribes that are saying, I am going to sit 
back on this for a while.
    So I would suggest that as you engage in the consultation, 
which I think is absolutely appropriate, that it be a very, 
very clear message to our tribes that the commitment that has 
been made is a commitment for full contract support costs, as 
the courts have directed, as the acts require. So I would 
certainly think that is how you answer the question of Senator 
Tester there in terms of what can be done.
    I mentioned in my comments that there is a fair amount of 
disappointment in Alaska with the management of fish and 
wildlife and of public lands in the State. I have called for an 
expansion of these tribal self-governance agreements within our 
Federal agencies, specifically the national parks and national 
wildlife refuges. How do you feel about this? Do you think 
there is a role for these Federal agencies in working, whether 
it is with TCC or other tribes in terms of management of the 
lands in their areas?
    Mr. Washburn. Yes, Madam Senator. I actually think that no 
one knows the lands better than the Alaska Natives do. So they 
can be trusted to help manage those lands themselves. We don't 
currently have trust lands in Alaska, so it is mostly other 
Federal lands. I think that we have to look to Alaska Natives 
to help us manage those lands, and they can do a good job. They 
are very competent, they know those lands well.
    And especially at a time now where with climate change, 
those lands are changing, as the ice is changing dramatically. 
So I think that is right, I think there are a lot of 
institutions and organizations in Alaska that can do this job 
well.
    Almost all of the Indian Health Service activity in Alaska, 
and maybe all of it, is contracted to tribes and tribal 
consortia. And they do a great job. So I think the other parts 
of the Federal Government should trust that they can work well 
with Alaska Natives.
    Senator Murkowski. What I think it is an important example 
to look to is what we have done on the health side. I think we 
have done a remarkable job. And it is these partnerships that 
have worked very effectively to the benefit of Alaska's native 
peoples when it comes to the health care. I think we can do 
more again when it comes to management of our public lands, and 
I would hope that our office would be working with us as we 
work to expand that.
    Another issue that I have raised, and have asked for 
consideration by this Administration is ensuring that there is 
a place for Alaska Native residents on the Federal subsistence 
board, basically putting more subsistence users on that Federal 
subsistence board. What are your thoughts on that?
    Mr. Washburn. I know that they looked at this board 
carefully in 2010, I believe, and suggested some changes to it. 
That was back when Secretary Salazar was in charge. And we do 
have, we have had Alaska Native leadership chairing the board. 
I think that is very important.
    The board is mostly composed of land management agencies 
and then the BIA. We are not a land management agency currently 
in Alaska. Then we have the citizen members of the board, one 
of whom is Alaska Native and chairs the board. So I wouldn't 
presume to say what the final composition of the board should 
be, but I think that the board's work is very, very important 
and Alaska Natives need to have a strong voice, because that is 
really who the board serves.
    Senator Murkowski. I would ask you to take a look at that 
as an issue as well as the rural determination process. There 
is of course a great deal of concern that this process for 
determining whether or not a village is rural or not is a fair 
and adequate process. I have asked for review of that, too. So 
several things I think we can be working on to try to ensure 
that when it comes to Alaska Natives and tribal self-
governance, self-determination that we are really fulfilling 
that intent to the maximum extent.
    Just one last thing. As you know, I was extremely, 
extremely disappointed in Secretary of the Interior's decision 
as it related to King Cove. I felt that the report that was 
made public by you after your visit was inadequate and did not 
adequately address the trust responsibility that I believe the 
DOI has to Alaska Native residents there in King Cove. So I 
would ask that we set up a meeting in my office or I will come 
to your office so we can discuss this further. If we can do it 
before the President's Day recess, I would appreciate any 
consideration you would give. I am sorry to put you on the spot 
and I don't expect you to answer me as to when we can do it, 
but I would like to have that sit-down with you.
    Mr. Washburn. I would be happy to make that a priority, 
Senator Murkowski. The trust responsibility, I understand your 
position, let me just say that I did get to weigh in, and 
weighed in very strongly after hearing from the community of 
King Cove. I think the trust responsibility is something that 
we share, the Congress and the Executive Branch share. So I 
would push back a little bit, because if the Congress had made 
more clear what the trust responsibility means in that context, 
it might have produced a different result. But we certainly 
have a trust responsibility too, and I am happy to talk more 
about that.
    Senator Murkowski. I look forward to that visit. Thank you, 
Madam Chair.
    The Chairwoman. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Madam Chair. I wasn't 
here at the beginning, but I first want to say, from my limited 
time on here so far, thank you for the role you have played as 
Chair of the Committee. I greatly appreciate the guidance you 
have given me as a new member on the Committee. So thank you 
for everything you have been able to do here.
    Let me also say, I am not sure what my time will be, but to 
Jerry, I may be here, I may not be, but I want to say thank you 
for coming all the way from Alaska. It is always good to have 
Alaskans here, where it is colder here than there, which is 
hard to explain to people. When I got a photo today of green 
grass in Anchorage, you have to wonder what is going on. So I 
appreciate your being here.
    I think we all agree that S. 919 is an important piece of 
legislation. But I want to cut to a couple of pieces, and 
again, always good to see you and be able to ask you a few 
questions and kind of follow up on what some other members have 
talked about. Obviously contract support costs are always on 
our mind. I think BIA is moving forward, I think the court has 
ruled and you are moving forward on settlement issues.
    But the challenge is this, I guess, when you look at the 
court's ruling, at least in the case that when they ruled they 
said between fiscal year 1994 and 2001, appropriations covered 
only between 77 and 92 percent of the tribe's aggregated 
contract support costs. So it begs the question, and it will 
lead to my larger question, and that is, if we know what you 
paid and we know what you haven't paid, because it is a 
mathematical issue here, but it seems based on the timetables 
that it will take to settle some of these issues, it could take 
a couple of years.
    The question I have for you is the shortfall reports that 
are given to Congress annually, which in theory, and you can 
correct me if I am wrong here, the shortfall reports say here 
is what we are falling short in paying. In theory those are 
factual, based on data, so we know if you paid X and the 
shortfall report says this, then that is what is owed. So why 
is it going to take so long to settle these when we know what 
is owed? Because I can only assume those reports are correct. 
Because those were submitted to Congress.
    So help me understand this dilemma, because what I keep 
hearing from folks as well, they want to re-examine what the 
costs really were. But then I would argue if that is the case, 
the shortfall reports were useless. But they are shortfall 
reports. And the court then says, here is what has been paid, 
so it seems like a simple math problem, then pay what is owed. 
Help me understand that.
    Mr. Washburn. Thank you, Senator Begich. And I won't do 
that.
    Senator Begich. But I need you to do that.
    [Laughter.]
    Senator Washburn. It is fairly complicated. Let me just say 
this. When we report an aggregate shortfall report, it doesn't 
say how much each tribe is owed. So that is a big aggregate.
    Senator Begich. Let me pause you there. But you then agree 
the total amount in those reports is what is short, what is 
owed? You just said that, right?
    Mr. Washburn. Well, I don't know if that is, this is a 
matter in litigation so I am on thin ice here. I will get in 
trouble whatever I say, basically.
    Senator Begich. There is thick ice in D.C., there is thin 
ice in Alaska right now.
    [Laughter.]
    Mr. Washburn. Let me say this. At the BIA we are working 
through a process with plaintiffs' counsel to statistically 
sample. There is a big question about whether the tribes have 
to prove up their actual expenditures or not. And there is a 
big debate about that. The tribes say, well, we didn't 
necessarily have actual expenditures, because we didn't get the 
money to spend. And that is a fair point. But under ordinary 
Federal contracting law, if you can't show that you incurred a 
cost, then you can't get reimbursement for that cost, I gather. 
And I am probably oversimplifying things, but these are the 
ways I understand this.
    I will tell you that I think S. 919 will help solve this 
problem going forward, because it will make really clear which 
Federal contracting laws apply to tribes and which don't.
    Senator Begich. I appreciate that, but I guess my point is, 
and I know you are trying to figure out and describe this in 
the public arena when we are in litigation issues. But can I 
ask you this, then, can you submit to me or to the Committee, 
whatever would be the appropriate channel, but I would like to 
get a more definitive timetable of how you are going to settle 
these. Because my worry is that these will just go on and on 
and on. The Supreme Court has ruled, we know the amounts, or we 
know the potential aggregate.
    Then I would like a comment at some point, not necessarily 
now but in writing, if you don't agree with the total aggregate 
in their shortfall reports, in other words, at the end of the 
day, if we settle with tribes and it is this much money based 
on those reports, then that should be easy. But if you are 
saying those may not be the right numbers, then we have to 
figure out why those reports are being submitted and what is 
the better way to approach this.
    Because really, first off, we never want to see those 
reports, because you should be paying 100 percent. But I am a 
little perplexed by that. Because when we see those reports, we 
assume this is what is owed. But if you are saying that is not 
exactly right, there are some variances, then that makes me, 
especially as an appropriator, a little wondering what is going 
on there. So you have to help me there. You don't have to do it 
now, but if you can kind of think about that issue.
    Then the last, and if this puts you on the spot you don't 
have to answer it. But I just want to follow up on what Senator 
Murkowski said, especially about King Cove. I sensed, the 
comment you made is if the Congress had defined the trust 
relationship differently, the outcome may have been different. 
What did you mean by that? And why I say that is because, did 
you have a different opinion on those conversations on King 
Cove? And if you don't want to answer, I understand. But I 
sense that there might have been some differences here, and if 
there is, what were they? Then second, what do we have to 
change to give you that authority if the outcome will be 
different. I think that is kind of the goal.
    Mr. Washburn. Senator Murkowski met with me before I went 
to King Cove and very clearly asked me to look at sort of the 
trust responsibility implications of what we were doing, and 
her staff. We met with a lot of her staff and her staff were 
very thoughtful. So I looked at the statute, and it was part of 
an omnibus statute, this portion about Isenbeck and King Cove. 
The omnibus statute had several provisions. It was a big public 
lands act.
    Senator Begich. Public lands went in 2009.
    Mr. Washburn. That is right. And the trust responsibility 
was discussed in other places with regard to tribes. But the 
trust responsibility was not mentioned once with regard to the 
King Cove community at Isenbeck. It is Congress that first 
defines the trust responsibility. It is up to you, it is up to 
Congress to say what does the trust responsibility mean in any 
given context.
    So that is what I found when I looked. When I looked at 
what does the trust responsibility mean here, I learned that we 
had no guidance from Congress whatsoever on that point. It is 
Congress' duty in the first instance to define the trust 
responsibility.
    We certainly have a trust responsibility, too. Executive 
Branch bears that responsibility. But it is formally defined by 
Congress, and Congress has plenary authority over Indian 
Affairs. So if it is defined by Congress, we have to follow 
that. It was utterly absent in that statute.
    So I would invite you the next time, if you want to make 
sure you get this done, you talk specifically about the trust 
responsibility to King Cove. This is a difficult issue. There 
are strong feelings on both sides of it. The Secretary I don't 
think was happy to be in the position of having to make this 
very difficult decision, which places very important values 
against one another. And I am frankly sorry to have to be in a 
position to make decisions like that. These are the hardest 
decisions we make. Because they make a real difference in 
people's lives and lots of people care about them.
    So that is what I was getting at.
    Senator Begich. Thank you very much. And as always, you are 
great on testimony. Thank you for always coming to Alaska.
    Mr. Washburn. Thank you.
    The Chairwoman. Thank you, and again, Assistant Secretary 
Washburn, thank you for being here. I don't think that any of 
us conspired with our staff to make this all about contract 
support. I think it is just a natural continuation of our quest 
to make sure that this issue is rectified. Both of my 
colleagues, Senator Murkowski and Senator Begich, invited me to 
Alaska this summer and I went. I have to say that the Alaska 
Native Medical Center is a state of the art facility, not just 
in Indian Country, but in the entire United States. They 
deserve their contract support and they are leading the way, 
juxtaposed to an IHS-run facility that is not necessarily 
innovating, meeting the needs of the community. So those are 
the two paths and choices, move toward the kind of innovation 
that is being delivered in Indian Country and in self-
governance. So we really have to rectify this issue.
    But I just wanted you to know, I don't think we all 
conspired, it is just a natural outflow. This is part of this 
discussion of self-governance and it is the complaints and 
concerns that we have heard before. I am sure the next panel is 
going to tell us a lot about just the day to day details of the 
success of self-governance. But we have to get this larger 
issue out from hanging over the self-governance issue.
    Again, thank you for being here.
    Mr. Washburn. It is my honor. Thank you.
    The Chairwoman. So we will hear now from our second panel 
of witnesses, as I have introduced them previously. We are so 
thankful for them being here.
    Ron Allen from the Jamestown S'Klallam Tribe; the Honorable 
Ron Trahan from the Salish Kootenai Tribes of Montana; Jerry 
Isaac, from the Tanana Chiefs Conference of Fairbanks, Alaska; 
and Mr. Mickey Peercy, Executive Director for Self-Governance 
for the Choctaw Nation.
    We are going to start with you, Mr. Allen. Again, thank you 
for being here, thank you for your leadership on the self-
governance issue overall.

    STATEMENT OF HON. W. RON ALLEN, CHAIRMAN/CEO, JAMESTOWN 
                        S'KLALLAM TRIBE

    Mr. Allen. Thank you, Madam Chair.
    It is always an honor and a privilege to come before this 
Committee to testify on behalf of any legislation that affects 
the welfare and the interest of Indian Country, and my tribe 
specifically. I do want to say that I am disappointed to hear 
that you are moving on as the Chair. You have done a great job 
on behalf of Indian Country and we are very proud of you, 
coming from Washington State, knowing the 29 tribes of 
Washington State, that you know our issues and you know the 
issues of Indian Country.
    I know it is almost like drinking from a fire hose when you 
deal with the complex issues of Indian Country, from Alaska to 
Florida. Senator Tester, I am glad to hear that you are going 
to step in. I know you are a great champion as well. And 
Senator Murkowski as well, on the Republican side, you have 
been a staunch supporter of Indian Country and our sovereignty. 
And we deeply appreciate your leadership as well.
    I am here to testify on behalf of S. 919. This is the 
culmination of a long negotiation between the tribes and the 
Congress and the Administration. It is a bill that has a lot of 
blood, sweat and tears written all over it. I want to thank you 
and your staff on both sides of the aisle who have worked very 
hard for us, with us, to make this thing happen. Assistant 
Secretary Washburn and his staff have been deeply engaged with 
us.
    For the most part, on the BIA side, those issues were 
worked out a long time ago. The heart of the matter ended up 
being more on the non-BIA side in clarifying some issues that 
you will see identified in Section 202.
    But the bottom line is that this this bill brings Title 4 
in line with Title 5. It continues on with the empowerment of 
tribal governments. I want to pause here and say, just the 
backdrop of our history in America and the family of 
governments, Indian governments were the first governments 
before this Union was even formed. We are recognized in the 
Constitution.
    So it took a lot of generations and a lot of years for the 
true relationship between Indian governments and the United 
States and the sister governments throughout America to have a 
respectful relationship to advance the interests of Indian 
Country and all the people that we serve.
    This bill is about that. It is about empowering tribal 
governments. Yes, it affects all of our programs, natural 
resources, law enforcement, education and so forth. And that is 
our duty, just like it is your duty to serve all of America and 
all of its interests. We just happen to be smaller, including 
our largest tribe, the Navajo Nation, that now is venturing 
into self-governance as well.
    So as you noted, there are well over half the tribes now 
that are in self-governance and moving forward. This bill is 
going to help make that happen. It is going to clean up the 
relationship. It is going to improve the process. It is going 
to clarify the relationship with regard to construction 
projects that are in place.
    And last but not least, it is going to make sure that it 
protects the administrative responsibilities with regard to 
non-BIA programs and with regard to legislation that affects 
water rights issues, as complex as they may be, throughout 
Indian Country. That was one of the tough issues that we had to 
deal with, and we think that we have worked out some language 
that addresses that issue and protects the interests of both 
the tribes and the interests of the Administration as it 
carries out its responsibilities in that mater.
    Self-governance really, when I reflect back, I was at the 
first hearing in 1987, as a result of the exposes that came out 
of the fraud, abuse, misuse of Federal funds. And ended up 
culminating in self-governance and the approval of Title 4 in 
1994. A fascinating experience, and it has been a fascinating 
experience ever since then. It is an unequivocal success, the 
flexibility, the ability for us to take these very limited 
Federal resources and use them more efficiently and more 
effectively to address our communities, as this is the success 
of self-governance. It is the empowerment, it is the trust 
between the United States and the Indian governments and our 
leadership that we know how to use these resources, consistent 
with their intent and as they were applied to our people.
    It doesn't always work, one size fit all, Washington, D.C., 
you folks certainly know that. This allows us to be able to 
tailor it to tribe in Montana, tribes in Washington, tribes in 
Alaska and so forth across Indian Country. That flexibility 
that Kevin Washburn referred to, the strengthening of our 
planning and management issues, affirming of our tribal 
sovereignty is a critical issue that definitely helps us move 
our agenda forward.
    It is not perfect. It doesn't address all of our issues. 
But it does move the agenda forward, it moves it forward 
constructively, and I think as a result of it, as you have 
asked earlier in opening remarks and that dialogue with 
Assistant Secretary Washburn, that is it going to result in 
more tribes getting engaged with the self-governance process 
and forum.
    I think that it is important to know that it allows us to 
use these resources to leverage other resources, including 
Federal resources that we weren't able to do before. If tribes 
don't have resources to leverage other Federal resources, 
sometimes they don't have an option and opportunity. This 
provides them that option and that opportunity.
    Final offer, and some of the provisions that are in my 
testimony, and you can review them at your pleasure, will show 
the different steps that allow us to improve the negotiations. 
Part of the problems, sometimes tribes can't find out what is 
their fair share of a program A, B and C. They need to identify 
that so they are comfortable and that people are comfortable 
that they can take over that program and administer it in the 
interest of the tribe and the people that they serve.
    I will conclude with, this is an important chapter we are 
turning. I really hope that we can move this legislation 
forward, that the House has a complementary piece of 
legislation and that this year we can finally see Title 4 be 
consistent with Title 5.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Allen follows:]

   Prepared Statement of Hon. W. Ron Allen, Chairman/CEO, Jamestown 
                            S'Klallam Tribe
    Good afternoon. Thank you for the opportunity to be here today to 
testify once again on this critical legislation. My name is W. Ron 
Allen and I am the Chairman/CEO of the Jamestown S'Klallam Tribe 
located in Washington State. I am also the Chairman of the Department 
of the Interior (DOI) Self-Governance Advisory Committee (SGAC), and I 
offer my testimony today in both capacities. Collectively, I am 
representing well over 300 Tribes that participate in Self-Governance 
within DOI and the Department of Health and Human Services (HHS), 
Indian Health Service (IHS).
    I am pleased to testify in support of S. 919, a bill to strengthen 
Indian Tribes' opportunities for Self-Governance by amending Title IV 
of the Indian Self-Determination and Education Assistance Act (ISDEAA) 
(P.L. 93-638, as amended). The proposed Title IV amendments advance 
three basic goals:

  <bullet> To bring Title IV up to par with Title V, the permanent 
        Self-Governance authority within HHS;

  <bullet> To clean up the construction provisions of Title IV; and

  <bullet> To maintain unchanged the discretionary authority to enter 
        Self-Governance agreements with non-BIA agencies in Interior.

    Before expanding on the need for these critical amendments, I will 
talk briefly about the success of the Self-Governance policy over the 
past 20 years and the Tribal-federal collaboration to expand that 
success through the Title IV amendments.
The Success of Self-Governance
    The increasing number of Tribes that have opted to participate in 
the Self-Governance program on an annual basis reflects the success of 
the program. In Fiscal Year 1991, the first year Self-Governance 
agreements were negotiated by the BIA with Tribes, only seven Tribes 
entered into agreements. At that time, the total dollar amount 
compacted by Indian Tribes was $27.1 million. By Fiscal Year 2013, 254 
Tribes and Tribal consortia entered into 106 funding agreements, 
operating $432 million in programs, functions, services and activities. 
\1\ The growth in Tribal participation in Self-Governance revealed by 
these numbers reflects the success of the program. Under Self-
Governance, Tribes have assumed the management of a large number of DOI 
programs, including roads, housing, education, law enforcement, court 
systems, and natural resources management. Why? Simply put, Self-
Governance works.
---------------------------------------------------------------------------
    \1\ Source: Dep't of the Interior, Budget Justifications and 
Performance Information, FY 2014, Indian Affairs, Appendix 7.

  <bullet> Self-Governance Promotes Efficiency. Devolving federal 
        administration from Washington, D.C. to Indian Tribes across 
        the United States has strengthened the efficient management and 
        delivery of federal programs impacting Indian Tribes. As this 
        Committee well knows, prior to Self-Governance, up to 90 
        percent of federal funds earmarked for Indian Tribes were used 
        by federal agencies for administrative purposes. Under Self-
        Governance, program responsibility and accountability has 
        shifted from distant federal personnel to elected Tribal 
        leaders. In turn, program efficiency has increased as 
        politically accountable Tribal leaders leverage their knowledge 
        of local resources, conditions and trends to make cost-saving 
---------------------------------------------------------------------------
        management decisions.

  <bullet> Self-Governance Strengthens Tribal Planning and Management 
        Capacities. By placing Tribes in decisionmaking positions, 
        Self-Governance vests Tribes with ownership of the critical 
        ingredient necessary to plan our own futures--information. At 
        the same time, Self-Governance has provided a generation of 
        Tribal members with management experience beneficial for the 
        continued effective stewardship of our resources.

  <bullet> Self-Governance Allows for Flexibility. Self-Governance 
        allows Tribes great flexibility when making decisions 
        concerning allocation of funds. Whether managing programs in a 
        manner consistent with traditional values or allocating funds 
        to meet changing priorities, Self-Governance Tribes are 
        developing in ways consistent with their own needs and 
        priorities, not a monolithic federal policy.

  <bullet> Self-Governance Affirms Sovereignty. By utilizing signed 
        compacts, Self-Governance affirms the fundamental government-
        to-government relationship between Indian Tribes and the U.S. 
        Government. It also advances a political agenda of both the 
        Congress and the Administration: namely, shifting federal 
        functions to local governmental control.

    In short, Self-Governance works, because it places management 
responsibility in the hands of those who care most about seeing Indian 
programs succeed: Indian Tribes and their members.
Need for Title IV Amendments
    As important and successful as the Self-Governance initiative has 
been for my Tribe and so many others, it is not perfect. Shortly after 
Title IV was enacted in 1994, the DOI began a rulemaking process to 
develop and promulgate regulations. The process was a failure in many 
ways. Ultimately, five years after the rulemaking process began, DOI 
published regulations that, from the Tribal perspective, failed to 
fully implement Congress's intent when Title IV was enacted. Instead of 
moving the initiative forward, it moved backwards.
    Tribal leaders began discussions about how the statute could be 
amended. At the same time, Congress in 2000 enacted Title V of the 
ISDEAA which created a permanent Self-Governance program within HHS, 
and which directly addressed many of the issues that proved to be 
problematic during the Title IV rulemaking process. But many of the 
improvements and Tribal authority reflected in Title V remain absent 
from Title IV. Consequently, many Self-Governance Tribes are forced to 
operate under two separate sets of administrative requirements, one for 
IHS and one for BIA.
    Tribal leaders decided that Title IV needed to be amended to 
incorporate many of Title V's provisions. It has long been a top 
legislative priority of Tribal leaders to amend Title IV. In the last 
ten years, I have testified several times before this Committee in 
support of predecessor bills to S. 919. \2\ Some members of Congress 
may be tired of hearing from me on this issue, but our persistence 
speaks to the importance Tribal leadership has placed on amending Title 
IV with respect to empowering Tribal governance to manage limited 
federal resources to benefit Tribal citizens.
---------------------------------------------------------------------------
    \2\ E.g., SCIA Hearing on H.R. 4347, Department of the Interior 
Tribal Self-Governance Act of 2010 (Nov. 18, 2010); SCIA Oversight 
Hearing on the Success and Shortfall of Self-Governance under the 
Indian Self-Determination and Education Assistance Act after Twenty 
Years (May 13, 2008).
---------------------------------------------------------------------------
    S. 919 reflects over ten years of discussions, drafting, 
negotiation, and redrafting. Particularly in the past two years, Tribal 
representatives, along with agency and Congressional staff, have worked 
hard to come up with a bill that everyone can support. The time has 
come to pass this legislation, which would significantly advance 
Congress's policy of promoting Tribal Self-Governance for American 
Indian and Alaska Native Tribal governments.
Overview of S. 919
    The proposed bill will bring Title IV into line with Title V, 
creating administrative efficiencies for Tribes while also importing 
the beneficial provisions of Title V currently missing in the older 
Self-Governance statute. Let me quickly summarize a few of the key 
provisions in S. 919. To address problems in the DOI's implementation 
of the Tribal Self-Governance program, S. 919 would, among other 
things:

  <bullet> conform Title IV to Title V in order to create consistency 
        and administrative efficiencies for Tribes now operating under 
        two compacting regimes;

  <bullet> establish a clear ``final offer'' process and timelines for 
        situations when DOI and the Tribe are unable to agree on 
        particular terms of a compact or funding agreement, or when DOI 
        delays approval unreasonably;

  <bullet> clarify and limit the reasons for which the agency may 
        decline to enter a proposed agreement;

  <bullet> protect Tribes from DOI attempts to impose unauthorized 
        terms in compacts or funding agreements;

  <bullet> provide a clear avenue of appeal and burden of proof for 
        Tribes to challenge adverse agency decisions;

  <bullet> clarify Tribal and federal oversight roles in construction 
        to ensure fiscal prudence and public safety;

  <bullet> leave unchanged the discretionary authority to compact non-
        BIA programs within DOI; and

  <bullet> make important amendments to Title I, the self-determination 
        contracting law, such as clarifying reporting requirements, 
        rules of interpretation, and applicability of certain Title I 
        provisions to Title IV agreements.

    There is ample precedent for most of S. 919 in Title V, which has 
worked very well in the context of health care services and served as 
the model for this legislation. Tribes have already conceded on very 
significant key issues-for example, removing provisions on mandatory 
compacting of non-BIA programs. The fundamental principles guiding S. 
919 are all sound, as proven by the success of Title V over the last 
decade.
Conclusion
    The Title IV amendments embodied in S. 919 significantly advance 
the U.S. policy of Tribal Self-Governance. These amendments would cost 
nothing; indeed, they would promote the efficient use of federal funds 
and improve services to Tribal communities across the nation. The 
legislation enjoys broad support among Tribes and their friends in 
Congress and Interior. S. 919 is the product of almost 14 years of 
experience, discussion, and compromise. Now is the time for this 
Committee, and Congress as a whole, to push the bill forward so we can 
build on the impressive success of the past and further Tribal Self-
Governance, in partnership with the United States, to improve the lives 
of our Tribal citizens.
    Thank you for this opportunity to share our views on this important 
legislative initiative for our Tribe and Indian Country.

    The Chairwoman. Thank you, and thanks again for traveling 
all this way. Now we will hear from Chairman Trahan. Thank you 
for being here.

STATEMENT OF HON. RONALD TRAHAN, CHAIRMAN, CONFEDERATED SALISH 
                      AND KOOTENAI TRIBES

    Mr. Trahan. Thank you. I will read my statement out here, 
so it is my testimony, so bear with me if you would, please.
    Good afternoon, Chairwoman Cantwell, Senator Tester and 
Committee members. My name is Ron Trahan. I am serving as the 
newly elected Tribal Chairman of the Salish and Kootenai Tribes 
of Montana.
    I also want to thank you personally, Chairwoman Cantwell, 
for the time that you spent with us on the Flathead Indian 
Reservation back in September, when you were visiting with 
Senator Tester.
    I will keep my remarks brief, since you have my written 
testimony.
    The Confederated Salish and Kootenai Tribes support S. 919, 
as well as the proposed changes to the bill under Committee 
consideration. As discussed in my written testimony, my tribe 
has a long history with self-governance contracting. Our late 
chairman, Ricky Pablo, was a tireless advocate for the adoption 
of self-governance laws. It does my heart good to report our 
tribes have thrived under the laws we helped enact.
    Ricky and former Chairman of the Committee, Senator Inouye, 
were great partners. We owe a great debt of gratitude to them 
and also former Vice Chair McCain and the many other tribal and 
Congressional leaders who turned self-governance into reality. 
Due in part to our extensive contracting activities and in part 
to our commercial activities by tribes, our tribe is the 
largest employer in northwest Montana and one of the largest in 
western Montana. The Confederated Salish and Kootenai 
government alone has over 1,000 full-time employees. Currently 
the tribal government annually administers approximately $25 
million in self-governance funds, $150 million in contracts and 
grants and $45 million in tribal revenue.
    A repot funded by the State of Montana several years ago 
showed that the Confederated Salish and Kootenai Tribes 
contributed $317 million to the Montana economy annually. 
Thanks in part to self-governance policies, we are a key player 
in building our reservation's and regional economies.
    As with our prior testimony on this legislation in past 
Congresses, I would like to update you on our self-governance 
efforts at the National Bison Range and Complex. I refer to the 
complex not just the National Bison Range, because the complex 
includes not only the bison range but two additional wild 
refuges that are located on tribally owned land, which is the 
Ninepipe and Pablo National Refuge.
    As you may know, we have been working for almost 20 years 
to secure a stable funding agreement with the U.S. Fish and 
Wildlife Service for the programs at the Bison Range complex. 
In 2008, our tribe signed an agreement with the service that 
allowed them to have a meaningful role in the operations of the 
bison range. That signing ceremony at the Interior Department 
was attended by Senator Baucus, Senator Tester and Secretary 
Kempthorne, among others.
    Over the next two years, that parties were very satisfied 
with the partnership. The agreement was challenged in Federal 
court by a group who opposed the tribal presence at the Bison 
range. The court rescinded the agreement on procedural grounds 
under the National Environmental Policy Act. We have been 
trying ever since to deal with the technicalities and return to 
the Bison Range. My written testimony gives a more detailed 
overview of the most recent history.
    The Fish and Wildlife Service is currently working on an 
environmental assessment of our new draft agreement. Yesterday 
we met and discussed our efforts with Dan Ashe, the Director of 
Fish and Wildlife Service. He assured me that the service wants 
to return to the productive partnership they had with us at the 
Bison Range and Complex. The partnership success we had with 
the Bison Rang is one reason why groups like the National 
Wildlife Federation supports the tribe's return under a new 
self-governance agreement.
    While we are frustrated by the amount of time it is taking 
for us to return to the bison range, it is our hope that the 
partnership we have built with the services at both field and 
policy maker levels will continue, and that this will happen 
sooner rather than later. We have exercised great patience over 
the last 20 years, but it simply should not take this long.
    Our bison range partnership will once again benefit the 
Service, the tribes and the communities, making the self-
governance agreement in everyone's best interest. We appreciate 
the support that this Committee and others in Congress have 
shown for our efforts.
    In concluding my remarks, the tribes support S. 919. Thank 
you again for the opportunity to share my thoughts with you. I 
also extend a personal invitation to the Chairwoman, Vice 
Chairman and all members of this Committee to visit the 
beautiful Flathead Indian Reservation so we can share with you 
more of what we do and who we are.
    At this time I would, along with my staff, happily try to 
answer any questions that you have. And again, thank you.
    [The prepared statement of Mr. Trahan follows:]

Prepared Statement of Hon. Ronald Trahan, Chairman,Confederated Salish 
                          and Kootenai Tribes
    Greetings Chairwoman Cantwell, Vice-Chairman Barrasso, Senator 
Tester and Committee members. My name is Ron Trahan and I serve as the 
Chairman of the Confederated Salish and Kootenai Tribes (``CSKT'' or 
``Tribes'').
    On behalf of the Confederated Salish and Kootenai Tribes, I thank 
you for the opportunity to provide our views on S. 919, including 
proposed revisions to the bill that are under Committee consideration. 
CSKT supports the legislation.
    This legislation, which would amend the Tribal Self-Governance 
Act's Interior Department provisions, found in Title IV of the Indian 
Self-Determination and Education Assistance Act (ISDEAA), has a long 
history. Ten years ago, in 2004, one of my predecessors, Chairman D. 
Fred Matt, testified before this Committee on an earlier version of S. 
919 (S.1715). Seven years ago, in 2007, another of my predecessors, 
James Steele, Jr., also testified here on draft legislation to amend 
the Tribal Self-Governance Act.
    The success and resilience of the Tribal Self-Governance Act, and 
Self-Governance tribes, is unquestioned. The record of success built by 
Self-Governance tribes is a testament to the foresight and wisdom of 
tribal and congressional leaders. The late CSKT Chairman Michael 
(``Mickey'') T. Pablo, had fiercely fought for enactment of Tribal 
Self-Governance legislation and policies. As we have stated before, the 
record built by CSKT, and Indian country, in administering federal 
programs would make Mickey proud. Mickey was instrumental in CSKT 
becoming one of the first ten tribes in the country to participate in 
the Tribal Self-Governance Demonstration Project in the late 1980's, 
and he was a key player in the subsequent permanent establishment of 
Tribal Self-Governance as federal policy.
    I would also like to acknowledge the essential contributions of 
this Committee, and its leadership under former Co-Chairmen Daniel K. 
Inouye and John McCain, in establishing Tribal Self-Governance as 
permanent federal policy. The manner in which Congress worked with 
tribal leaders to develop, test, and then permanently enact the Tribal 
Self-Governance paradigm is an outstanding model for how policy should 
be formulated.
    CSKT has long asserted that ISDEAA and its 1994 amendments, known 
as the Tribal Self-Governance Act (Title IV of ISDEAA), have been two 
of the most important and successful pieces of federal Indian 
legislation in history. They are a logical progression from the Indian 
Reorganization Act of 1934, which first set the stage under federal law 
for tribal governments to once again determine our own affairs, protect 
our own communities, and provide for our own people in concert with our 
respective cultures and traditions--something we have done since time 
immemorial. Fully implementing Tribal Self-Governance is a pivotal step 
in realizing the federal policy of Indian Self-Determination that was 
ushered in almost forty years ago.
CSKT's Self-Governance Background
General Background
    CSKT has been one of the most active of the many Self-Governance 
tribes and, as mentioned above, is one of the original ten Self-
Governance tribes. We have found the system of Self-Governance 
contracting, through compacts and annual funding agreements (AFA's), to 
be highly effective in: (1) increasing the efficiency and integrity of 
federal services to tribes and tribal members; (2) increasing tribal 
autonomy and self-sufficiency; (3) strengthening the government-to-
government relationship between the United States and tribal 
governments; and (4) developing our Tribal economy. All of these are 
among the principal objectives identified by Congress in its policy 
rationale for ISDEAA:

         [T]he United States is committed to supporting and assisting 
        Indian tribes in the development of strong and stable tribal 
        governments, capable of administering quality programs and 
        developing the economies of their respective communities.

        25 U.S.C.  450a(b)

    As Congress later stated in enacting the Tribal Self-Governance Act 
of 1994:

         The Tribal right of self-government flows from the inherent 
        sovereignty of Indian tribes and nations[. . . .] It is the 
        policy of the Tribal Self-Governance Act to permanently 
        establish and implement self-governance . . . [t]o permit each 
        Tribe to choose the extent of its participation in self-
        governance.

        25 C.F.R.  1000.4(a)(1), (b)(2)

    Currently, the CSKT Tribal government annually administers 
approximately: $25 million in Self-Governance funds; $150 million in 
contracts and grants; and $44 million in Tribal revenue. Our government 
alone has 1,000 full-time employees. We are the largest employer on the 
Flathead Reservation, the largest employer in northwestern Montana, and 
we contribute over $30 million in payroll and over $50 million in 
purchasing to the local economy. A report funded by the State of 
Montana several years ago showed that CSKT contributed $317 million to 
the Montana economy annually. \1\ It is important to remember, however, 
that the Indian unemployment rate on our Reservation is still much 
higher than that of the general area population. This is an indicator 
that we have a long way to go in building our Tribal and Reservation 
economies. To this end, the Tribal Self-Governance Act remains a vital 
tool for us.
---------------------------------------------------------------------------
    \1\ ``Monetary Contributions of Reservations to the State of 
Montana'', prepared by Eleanor YellowRobe, Bureau of Business and 
Economic Research, University of Montana (submitted to State Tribal 
Economic Development Commission, Montana Department of Commerce--
November 2007) pp. 1, 9-10.
---------------------------------------------------------------------------
    The following is a list of just several examples of CSKT's 
successes in administering programs through ISDEAA and Self-Governance:

  <bullet> In 1986, we signed a contract to take over control and 
        management of the electrical utility on our reservation, then 
        known as the Electrical Division of the Flathead Indian 
        Irrigation Project. We renamed it Mission Valley Power (MVP). 
        This utility serves every home and business on the reservation, 
        Indians and non-Indians alike. It also provides power to the 
        National Bison Range. It is considered one of the best-run 
        utilities in the state of Montana. Since the Tribes took over, 
        MVP has replaced and updated much of the utility's 
        infrastructure yet managed to retain some of the lowest rates 
        in the region. MVP has been 638-contracted and has not been 
        included in subsequent Self-Governance agreements due to the 
        prohibition found in 25 U.S.C.  458cc(b)(4)(C). CSKT supports 
        S. 919's deletion of this prohibition.

  <bullet> Since 1996, CSKT has contracted the operation of the Bureau 
        of Indian Affairs' (BIA) Land Title Recording Office (LTRO) for 
        the Flathead Indian Reservation. We are aware of only a few 
        other tribes that contract or compact the LTRO program in its 
        entirety. Through Tribal control, we have: greatly decreased 
        waiting time for requested documents; more nimbly adjusted 
        priorities to respond to different needs regarding appraisals, 
        mortgages, leases, etc.; and increased budget efficiencies for 
        a program that is severely underfunded by the federal 
        government. Tribal operation of LTRO functions has also been a 
        key factor in CSKT's record of proactive land acquisitions and 
        reduction of land fractionation through Tribal acquisition of 
        fractionated interests.

  <bullet> In 1989, CSKT contracted the BIA's Safety of Dams (SOD) 
        program. One of the main objectives of this program is to 
        eliminate or remediate structural and/or safety concerns at 17 
        locations on the Flathead Indian Reservation as identified by 
        the Department of Interior National Dams--Technical Priority 
        Rating listing. CSKT's SOD Program provides investigations, 
        designs and SOD modifications to resolve the concerns of the 
        dams on the list. The Tribes' SOD Program has been extremely 
        successful and, under our administration, Reservation dams have 
        been modified at a cost significantly lower than originally 
        estimated by the Bureau of Reclamation. Past examples include 
        completion of Black Lake Dam in November 1992 at a savings of 
        approximately $1.3 million below Bureau of Reclamation 
        estimates. The Pablo Dam Modification Project was completed in 
        February 1994 at a savings of nearly $140,000.
  <bullet> In fiscal years 1997 and 1998 respectively, CSKT began 
        compacting for administration of the Individual Indian Monies 
        (IIM) program for the Flathead Reservation. As of the January 
        23, 2013 Federal Register listing of Tribal Self-Governance 
        agreements with non-BIA agencies, CSKT is the only tribe that 
        currently has such an agreement with the Office of Special 
        Trustee (OST) for these functions.
National Bison Range Complex
    With respect to non-BIA programs, the Interior Department has not 
established a very encouraging record regarding Tribal Self-Governance 
agreements. As this Committee is well aware, for almost twenty years 
CSKT has been working to secure a stable funding agreement with the 
U.S. Fish & Wildlife Service (FWS) for programs at the National Bison 
Range Complex (NBRC), which is almost entirely located within the 
Flathead Indian Reservation. The NBRC includes two ancillary National 
Wildlife Refuges that are located on Tribally-owned land in the center 
of the Reservation (the Ninepipe and Pablo Refuges).
    While the effort has been unnecessarily expensive, frustrating and 
resource-intensive, it is worth the fight. In addition to the National 
Bison Range's physical location in the center of our Reservation, the 
NBRC's bison herd has its origins with the bison herd started and grown 
by Tribal members in the late 1800's and early 1900's, when bison were 
threatened with extinction. The NBRC's Ninepipe and Pablo Refuges are 
the result of Tribal requests in the 1910's and 1920's for the federal 
government to put the areas around two irrigation reservoirs into 
protected status for bird conservation. After several years, the United 
States responded by issuing two Executive Orders designating the areas 
as Refuges. In 1948, Congress acquired a perpetual easement from CSKT 
for such Refuge uses at Ninepipe and Pablo, while also recognizing the 
Tribes' reserved rights on the properties. \2\ Collectively, the 
National Bison Range and the Ninepipe and Pablo Refuges occupy a unique 
place within our Reservation, our history, our culture, and our hearts.
---------------------------------------------------------------------------
    \2\ Act of May 25, 1948, 62 Stat. 269, at Section 5(b).
---------------------------------------------------------------------------
    As this Committee is aware, the CSKT has executed two multi-year 
AFA's with FWS for programs at the NBRC. The first AFA was signed in 
2004, and the second was signed in 2008 at a Washington, D.C. ceremony 
attended by Interior Secretary Dirk Kempthorne and Montana Senators Jon 
Tester and Max Baucus. Unfortunately, both of these agreements came to 
premature ends.
    With the negotiation and implementation of the 2008 AFA for NBRC 
programs, which covered fiscal years 2009-2011, CSKT and FWS built a 
highly constructive relationship both on the ground and at the policy-
maker level. That relationship was reflected in many ways, including: 
positive status reports; successful annual bison round-ups; positive 
visitor feedback; and increased general communication and coordination 
between federal and tribal staffs.
    Unfortunately, two non-governmental organizations \3\ who have 
consistently opposed the federal-tribal partnership, challenged the 
agreement in a federal court action, stating that it violated a number 
of federal statutes such as the Tribal Self-Governance Act and the 
National Wildlife Refuge System Administration Act. The court did not 
rule on any of those substantive claims, but it did find that FWS 
failed to properly explain its invocation of a categorical exclusion 
under the National Environmental Policy Act when it approved the AFA, 
so the court rescinded the agreement on the basis of that procedural 
violation. The court decision was handed down in September 2010. In the 
three and a half years since that decision, CSKT has negotiated a new 
draft agreement with FWS and the agency then began preparing an 
Environmental Assessment for the draft agreement. It is still in the 
process of preparing that Assessment.
---------------------------------------------------------------------------
    \3\ Public Employees for Environmental Responsibility (PEER) and 
the Blue Goose Alliance.
---------------------------------------------------------------------------
    CSKT is pleased to have a wide pool of support for an NBRC Self-
Governance agreement, including from conservation groups such as the 
National Wildlife Federation (see attached letter from NWF submitted in 
response to FWS' 2012 request for scoping comments regarding the 
Environmental Assessment). As stated by then-Chairman and Ranking 
Member of the House Natural Resources Committee, Congressmen Nick 
Rahall and Don Young:

         Working with Tribal governments . . . under the authorization 
        of the Tribal Self-Governance Act should not be viewed any 
        differently than partnering with State governments especially 
        in this instance where the tribe owns the land on which the 
        ancillary facilities of the NBRC National Bison Range Complex 
        [sic] are located. \4\
---------------------------------------------------------------------------
    \4\ May 15, 2007 letter to Interior Secretary Dirk Kempthorne from 
House Natural Resources Committee Chairman Nick Rahall and Ranking 
Minority Member Don Young, p. 2 (copy attached to this testimony).

    While we have been very frustrated with the length of time that 
this process is taking, we are hopeful that the improved relationship 
between CSKT and FWS will result in a satisfactory agreement that will 
return CSKT staff to the National Bison Range soon so we can continue 
what was widely-acknowledged to be an effective partnership. As the New 
York Times said in a September 3, 2003 editorial addressing the Bison 
Range partnering efforts, ``if the Salish and Kootenai can reach an 
agreement with the Fish and Wildlife Service, something will not have 
been taken from the public. Something will have been added to it.'' 
---------------------------------------------------------------------------
(see copy of editorial below).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    To this end, I would like to extend the CSKT Tribal Council's 
sincere appreciation for our friends in Congress who have long 
supported a Self-Governance partnership at the NBRC.
Provisions of S. 919
    As mentioned at the outset of this testimony, CSKT supports S. 919, 
including the proposed revision currently under the Committee's 
consideration. Making Titles IV and V of ISDEAA (Interior Self-
Governance and Indian Health Service Self-Governance, respectively) 
more consistent has long been a goal for Self-Governance tribes. CSKT 
agrees with S. 919's approach of leaving intact much of the existing 
statute, while amending some of the current provisions and adding new 
ones.
    CSKT greatly appreciates the inclusion in S. 919 of specific 
recognition that 50 percent of costs incurred by a tribe's governing 
body are reasonable and allowable for purposes of contract support cost 
determinations. Including this provision in the statute would bring an 
end to past uncertainties as to whether the federal government would 
continue this past practice. This has a significant impact on the 
budget of CSKT and many other tribes. [ 104 of S. 919, as introduced]
    CSKT particularly supports S. 919's definition for the term 
``inherent Federal function''. While the term is already so defined in 
Title V, having the definition specifically included for Interior 
programs is a positive step towards eliminating the confusion over this 
term during field-level negotiations. [ 201(a)(``401(6)'') of S. 919, 
as introduced]
    As the only tribe currently with a Self-Governance agreement with 
the OST, we also support S. 919's explicit incorporation of the OST 
with respect to mandatory Self-Governance agreements. [ 
201(c)(1)(``(a)(2)'']
    CSKT appreciates S. 919's inclusion of specific authority for 
multi-year funding agreements, as this is an issue for which we have 
encountered some resistance from federal agencies in the past. We have 
been able to resolve the disagreements successfully, but statutory 
clarification will prevent needless disagreements on the issue in the 
future. [ 201(c)(1)(``(p)(4)'']
    CSKT strongly supports the statutory clarification of tribal 
ability to carry-over funding. This is also an area in which we have 
had disagreements with federal agencies and we welcome the 
clarification. [ 201(d)(``408(k)'']
    With respect to contract support funding, it is important that S. 
919 retains the existing statutory language mandating funding for 
contract support costs (25 U.S.C.  458cc(g)(3)). Payment of contract 
support costs is a prerequisite for realizing the full potential of 
Tribal Self-Governance objectives. Stronger efforts to secure adequate 
appropriations for this area are badly needed. In our testimony on 
prior versions of this legislation, CSKT has repeatedly raised this 
issue. We have consistently maintained that Congress did not intend for 
Self-Determination or Self-Governance contracting to be money-losing 
propositions, yet that is what they have become as long as the federal 
government refuses to pay tribes what they are due under the law for 
administration of the programs. Since our last testimony regarding this 
legislation, the Supreme Court has confirmed, in its Salazar v. Ramah 
Navajo Chapter opinion, \5\ that the Federal Government is legally 
obligated to fully pay these costs. We were very disappointed in the 
Obama Administration's effort to cap contract support cost payments for 
fiscal year 2014, thereby preventing tribes from pursuing legal claims 
for full payment. CSKT very much appreciates Congress' rejection of 
that approach in the FY14 budget, and we appreciate the leadership of a 
number of Senators on this Committee in advocating for tribes on this 
issue.
---------------------------------------------------------------------------
    \5\ 132 S.Ct. 2181 (2012).
---------------------------------------------------------------------------
    CSKT supports S. 919's approach of maintaining the existing 
statutory authority for contracting Interior programs, outside of the 
BIA, that are of geographic, historical or cultural significance to 
tribes. It is through the lens of our experiences involving the NBRC 
that we evaluate the non-BIA provisions of S. 919. The legislation 
would leave untouched the statutory authority for NBRC contracting, 
found at 25 U.S.C.  458cc(c). CSKT supports this since we have 
negotiated multiple agreements under this authority and do not want to 
see it diminished or impaired in any way. Section 202 of S. 919, both 
as introduced and in the Committee's proposed amended version, further 
clarifies that nothing in this legislation would modify this aspect of 
non-BIA contracting authority. CSKT would strongly oppose any changes 
or amendments to non-BIA contracting authority that could be used by 
opponents of tribal contracting to further hamper or prevent Self-
Governance partnerships such as those we have built at the NBRC.
    CSKT believes more should be done to encourage, rather than 
discourage, these partnerships. The United States is rapidly falling 
far behind countries such as Canada and Australia when it comes to 
federal-tribal partnerships in the management of protected areas such 
as refuges and parks. CSKT believes that Tribal Self-Governance 
policies and agreements have been, and can be, strong vehicles for 
constructive collaboration between the United States and Indian tribes.
    Two areas of continuing concern for CSKT which S. 919 does not 
currently address include the following:

         Federal Tort Claims Act (FTCA) coverage. Presently, liability 
        coverage for tribal contractors, including FTCA coverage, is 
        addressed in Title I of ISDEAA at 25 U.S.C.  450f(c). In past 
        AFA negotiations, CSKT has expended a disproportionate amount 
        of time and energy over the issue of whether FTCA coverage 
        existed for tribal volunteers who perform work for a contracted 
        federal program. CSKT has long maintained that tribal 
        volunteers performing federal program work should enjoy the 
        same FTCA coverage as federal volunteers performing such work. 
        Unfortunately, we have not resolved this issue and, as a 
        result, the BIA has agreed to purchase liability insurance to 
        cover Tribal volunteers under our last two NBRC AFA's. While we 
        have found agreement with our position from Interior solicitor 
        offices, we understand that opposition emanates from the U.S. 
        Department of Justice (DOJ). We are generally concerned with 
        what seems to be an increasing practice by the DOJ to narrowly 
        interpret FTCA coverage in circumstances involving tribal 
        contractors, as well as in other situations. This unfortunately 
        has had negative impacts on CSKT's ability to recruit 
        volunteers for contracted programs and/or explain to existing 
        or prospective volunteers the scope of their liability 
        coverage. In plain terms, we believe we have lost potential, 
        and past, volunteers at the NBRC due to this issue. We 
        encourage Committee attention to this ongoing problem.

         Full funding of programs. CSKT has been on record with 
        equating the issue of full program funding to effective 
        implementation of ISDEAA and Tribal Self-Governance objectives. 
        Without Congressional commitment to fully funding the federal 
        programs being contracted by Self-Governance tribes, we cannot 
        overcome the resource limitations to making the programs as 
        successful as they need to be. Dwindling, or stagnant, federal 
        funding results in tribes having to supplement federal programs 
        with tribal dollars. This serves as a disincentive to contract 
        under ISDEAA and Tribal Self-Governance. Just a couple of the 
        many examples relevant to Title IV contracts include:

            The recently completed third independent assessment and 
        report on the status of Indian forests and forestry finds that 
        BIA funding for Indian trust forest management is $2.82 per 
        acre--an amount which is only one-third of the funding level 
        for the U.S. Forest Service, which is $8.57 per acre.

            Per capita spending on law enforcement in Native American 
        communities is roughly 60 percent of the national average.

    Similar disparities exist for almost all Indian programs contracted 
under Title IV. While this is an appropriations issue and somewhat of a 
separate issue from the Self-Governance provisions of S. 919, it is 
materially related to achieving the goals of the Act and is thus a 
proper subject for this Committee's attention. Congressional 
rectification of this issue would be a solid investment into more 
effective program delivery and better administration of the federal 
trust responsibility.
Conclusion
    The Confederated Salish and Kootenai Tribes are one of many tribes 
that successfully partner with the federal government under the Tribal 
Self-Governance rubric. Work remains to be done towards: (1) 
eliminating disincentives and removing barriers to Self-Governance 
participation; and (2) encouraging non-BIA Self-Governance activity. 
The proposed legislation is a good start towards accomplishing those 
ends.
    On behalf of CSKT, thank you for the opportunity to provide 
testimony and I would like to thank this Committee, its Members, and 
staff, for your support of Self-Governance. I would be happy to answer 
any questions.

    Attachments

Jeff King,
Refuge Manager,
National Bison Range,
Moiese, MT 59824

      Re: Scoping Comments--Notice of Intent to Prepare an 
    Environmental Assessment Regarding the Interest of the 
  Confederated Salish and Kootenai Tribes to enter into an 
 Annual Funding Agreement with the U. S. Fish and Wildlife 
Service (``The Service''), for the Operation and Management 
            of Programs at the National Bison Range Complex

Dear Mr. King,

    Thank you for the opportunity to provide comments concerning your 
notice of intent to prepare an Environmental Assessment regarding the 
Annual Funding Agreement (AFA) with Confederated Salish and Kootenai 
Tribes (CSKT) and the National Bison Range (NBR). The National Wildlife 
Federation (NWF) is America's largest conservation organization and has 
over 4 million supporters and 47 state affiliates. NWF has a long 
history of partnering with Native American Tribes to conserve and 
protect wildlife for our children's future and currently partners with 
the CSKT on numerous wildlife, habitat and environmental issues.
    NWF strongly believes that a partnership between the Service and 
the CSKT should be formalized through a new self-governance AFA that 
would contract with the CSKT to operate eligible refuge programs and 
perform specific day-to-day activities of the NBR consistent with the 
National Wildlife Refuge System Administration Act (NWRSAA). NWF has 
supported this partnership since it was originally proposed in 2004.
    On May 17, 2012, the CSKT's received NWF's National Government 
Conservation Achievement Awards for their outstanding commitment to 
preserving, protecting and restoring wildlife and habitat for future 
generations. \1\ The CSKT is unparalleled in their methods, efforts, 
conservation ethic and follow through to achieve sustainable 
conservation outcomes. Known throughout the country for their 
scientific and cultural knowledge, their partnerships with other 
governments and long history of conserving, managing and restoring 
wildlife habitat, the CSKT Division of Fish, Wildlife, Conservation and 
Recreation are more than qualified to partner with the Service to 
manage NBR's resources.
---------------------------------------------------------------------------
    \1\ Missoulian, http://missoulian.com/news/state-and-regional/
salish-kootenai-tribes-win-national-conservation-award/
article_0e02a208-9fc2-11e1-9d9d-0019bb2963f4.html.
---------------------------------------------------------------------------
    As you know, the CSKT's have a long history of managing wildlife 
and wild lands in partnership with local, state and Federal 
governments. For example, they have,

  <bullet> Signed a historic landmark agreement in 1990 between the 
        Tribes and the state of Montana governing bird hunting and 
        fishing on the Flathead Indian Reservation.

  <bullet> Successfully managed 97,000 acres of primitive areas.

  <bullet> Acquired and managed over 11,000 acres of fish and wildlife 
        habitat through the Tribal Wildlife Management Program.

  <bullet> Acquired over 4,600 acres of land, including 27 miles of 
        streams and lake habitat to offset impacts to fisheries.

    The National Bison Range is an outstanding and important resource 
for all Americans and the CSKT are outstanding land and wildlife 
managers that preserve and protect wildlife in one of the most 
important ecosystems in North America. The Tribes helped save the bison 
in the 19th and early 20th centuries and will continue to protect the 
bison and other wildlife species and natural resources on the NBR for 
future generations.
    We believe that this partnership will produce numerous long-term 
benefits to the Tribes, the Service and all Americans. The agreement 
will utilize the best abilities and resources of the Tribes and the 
Federal Government to manage NBR's resources and better serve the 
people that utilize the land. This partnership will also facilitate the 
achievement of Departmental and Congressional objectives for both its 
NWRS and Tribal Self-Governance programs. The Tribe is in a strong 
legal position to participate in the AFA. The Tribal Self-Governance 
Act of 1994 gives qualified Indian tribes the right to request funding 
agreements to perform activities administered by the Department of 
Interior that are of special geographic, historic or cultural 
significance to the requesting tribe. It is well known that the NBR has 
a very high level of cultural, historic and geographic significance to 
the CSKT and all units of the NBR under consideration for an AFA are 
located within the Flathead Reservation. Many of the bison that reside 
on the NBR are descendants from a herd originally saved by Tribal 
members in the late 19th century, and which originated on the 
reservation.
    We look forward to working with the Service and CSKT on the 
Environmental Assessment for the AFA.
        Sincerely,
                        Larry Schweiger, President and CEO,
                                      National Wildlife Federation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairwoman. Thank you, Mr. Trahan. Again, thanks for 
that invitation. You do represent a beautiful part of our 
Country, so you never know when some of us might show up.
    We are going to wait on questions, we are going to go to 
Mr. Isaac next, and when we have finished with him and Mr. 
Peercy, then we will go to questions. Thank you for your 
testimony.
    Mr. Isaac?

 STATEMENT OF JERRY ISAAC, PRESIDENT, TANANA CHIEFS CONFERENCE

    Mr. Isaac. Thank you, Chairwoman Cantwell, Vice Chairman 
Barrasso and the rest of the Committee, Senator Murkowski and 
Senator Tester.
    Thank you so much for holding today's hearing on S. 919. I 
too will read my testimony. As I noted in my written testimony, 
this is likely my last opportunity to testify before Congress 
on behalf of Tanana Chiefs Conference. So today is a very 
special day for me.
    Thank you to the Committee for inviting me. But more 
importantly, thank you for all that you have done to help 
Indian Country and that you continue to do to help Indian 
Country.
    I have witnessed incredible change in the past decades, all 
for the good. Much of it is attributable to the work of this 
Committee. I am here today to support enactment of S. 919, so 
that the rules for compacting with the Department of the 
Interior will finally be consistent with the successful 
compacting rules that control the Indian Health Services.
    Title 4 and Title 5 are part of one law, the Indian Self-
Determination Act. We deal with two agencies, IHS and BIA. But 
there is just one law and there should just be one set of rules 
to follow.
    In my written testimony I mentioned on good example of how 
self-governance suffers when there are two different sets of 
rules. In the IHS rule, we sometimes have delays with IHS in 
negotiating a new funding agreement on a new funding table. 
When that happens, thanks to Title 5, our old funding agreement 
with IHS remains in place. Funding continues, services 
continue. The old agreement stays in place until there is a new 
agreement.
    But in the BIA world, a negotiation delay means funding 
stops, services stop, the compacting relationship essentially 
stops. This is not just a timing issue. Because of these 
different rules Interior can and in the past Interior has 
refused to sign a new agreement unless we accept Interior's 
demands for unilateral changes in those agreements or in the 
funding tables. That kind of pressure tactic is unacceptable. 
It is contrary to the core principle of tribal self-governance 
and the whole idea of government to government relations.
    I am pleased to say that the current Administration has not 
pressured tribes in this fashion. The new bill will make 
certain that these improvements and current practice will 
become improvements in the law. But no contracting law alone 
can address our most severe problems. Those include the 
terrible abuse suffered by women in some of our villages. The 
recent Law and Order Commission report once again put a 
spotlight on this terrible issue and on the barriers that are 
preventing our local tribal governments from doing more to 
help.
    I am extremely pleased to see that Senator Murkowski and 
Senator Begich have committed in S. 1474 to repeal Section 910 
of the Violence Against Women Act. All I would ask is that the 
Committee consider adding that one provision into this bill. 
Our women are suffering and our tribes lack the tools they need 
to do something about it. They cannot wait, our women cannot 
wait.
    So I hope that this is something the Committee can consider 
adding to S. 919 as this important bill moves forward. It all 
relates to improving the ability of our tribes to maximize 
tribal self-governance and make the communities safe and 
healthier for all.
    Before closing, I want to offer a special thanks to the 
Committee for being such a champion on the contract support 
cost issue. Thanks in major part to your two hearings, the 2014 
Omnibus Appropriation rejected efforts to convert our self-
governance compacts into little more than discretionary grants. 
I thank you.
    But more work remains to be done. All of the past contract 
support cost claims need to finally be resolved. We have waited 
too long, 20 years. This makes no sense. Not when the agencies 
have already told Congress how much they owe. I am confident 
that with your continuing support, these claims can at long 
last be concluded.
    Thank you for the privilege of appearing today. Thanks to 
the Indian self-Determination act, our villages are stronger 
and our futures are brighter. Most importantly, our vision 
remains unchanged for all tribes, including Alaska tribes, to 
be vested with the power and resources necessary to assure 
safe, healthy and sustainable communities. I thank you again.
    [The prepared statement of Mr. Isaac follows:]

 Prepared Statement of Jerry Isaac, President, Tanana Chiefs Conference

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairwoman. Thank you.
    Mr. Peercy, welcome. Thank you for being here.

    STATEMENT OF MICKEY PEERCY, EXECUTIVE DIRECTOR OF SELF-
             GOVERNANCE, CHOCTAW NATION OF OKLAHOMA

    Mr. Peercy. Thank you, Senator. I will read some of mine 
then I will talk some of mine. I talk better than I read. I 
would ask Chairman Allen to catch me if I get out of line. They 
say I don't have a filter, but I know I do.
    The Chairwoman. You have a clock, for sure.
    Mr. Peercy. I have a clock, and it is running.
    [Laughter.]
    Mr. Peercy. That is what I get I ramble.
    On behalf of Chief Gregory Pyle and the Council at Choctaw 
Nation, I want to thank you for all your support of this 
distinguished Committee and also for your action on S. 919 as 
well as the 11 co-sponsors.
    Choctaw Nation began in this self-governance journey in 
1994, 1995, respectively, with IHS and the Bureau of Indian 
Affairs. It is the Chief's and Council's responsibility to 
always look after their people and also to do everything 
possible to guarantee self-sufficiency of the people and the 
Nation.
    BIA, the Chief would not have me come here if I didn't say 
that means bossing Indians around. He is confidently saying 
that. And it is an issue. Go with me just a little bit to 
Ardmore, Oklahoma and an Indian family that has an IM account, 
they have issues with money. Refrigerator goes out, so they 
load up the children, they load up the family and they drive up 
to the agency's office and they go ask the social worker first, 
then they ask the superintendent of the agency if they can have 
enough money to buy a refrigerator. It is not right. There is 
nothing right about that in terms of the dignity of the Indian 
family, of any family of anyone. It is not acceptable.
    The tribe does everything that it can to build self-
sufficiency within self-governance, to build the self-
sufficiency of the family as well as the Nation. So those sorts 
of indignities don't happen. S. 919 makes it a high priority of 
self-governance tribes in our quest to get legislation enacted 
that will remove many of the administrative and practical 
barriers that persist and have persisted in Title 4.
    The current law, as it is, allows for delays and 
obstruction by the DOI which has resulted in frustration for 
tribes through self-governance implementation process. Instead 
of operating program services, functions and activities in an 
efficient and productive manner as originally intended, and 
performed under the self-governance demonstration projects, 
tribes have been subject to pushbacks constantly in the system. 
This cannot work any longer.
    In testimony with Dr. Roubideaux at one time, four or five 
years ago, I wrote in written testimony as well as speaking 
that the Indian Health Service, we were talking about contract 
health service. I had made the statement that the Indian Health 
Service didn't have the DNA to do contract health service. It 
wasn't personal. It is the fact that the management of that 
program, they weren't able to do it, they weren't able to get 
doctors paid on time and they didn't seem to have the 
willingness to do what it took. Dr. Roubideaux still hasn't 
forgiven me for that.
    But it is the case here. It is the case when we have 
Federal people, and I appreciate this Committee and I 
appreciate Kevin Washburn, he is Chickasaw, they live right 
next door to us, and I appreciate the political people, all the 
secretaries, all the heads that are political, I don't care if 
it is Republican or Democrat, they can't do it. It is the 
career people who stop the progress.
    And I will say that, I am probably going to retire in about 
four or five years, but I am going to say that going to my 
grave, that there is an inherent thing going on, and I have 
seen two decades of Federal people. So it is not just one 
decade, it is the next decade. I have been doing this since 
1985. And there is an inherent need to be paternalistic, 
especially with the Bureau. And until laws are set and 
regulations are set that challenges that and makes it easier to 
go down that road, we are going to be stuck where we are.
    With that, I know I am a little bit over, about five 
seconds. We are humble but proud, we are strong and will 
continue to grow and succeed. But most of all, we believe that 
we made the right choice putting our tribe under self-
governance. We need new tools, we need new tools to make sure 
that we are refining the process, building upon the initiative 
and government-to-government relationships so that we can 
successfully continue this point. S. 919 is one of those tools.
    Thank you for your patience. We are here to answer any of 
those hard questions.
    [The prepared statement of Mr. Peercy follows:]

    Prepared Statement of Mickey Peercy, Executive Director of Self-
                 Governance, Choctaw Nation of Oklahoma
    On behalf of Chief Gregory Pyle and the Choctaw Nation of Oklahoma, 
thank you Vice-Chairman Barrasso for inviting Choctaw to testify and 
thank you to the Senate Committee on Indian Affairs for convening this 
hearing on S. 919. We would also like to thank the eleven co-sponsors 
who by their very actions represent the continued belief in Congress 
that Self-Governance works!
    The Choctaw Nation of Oklahoma is an American Indian Tribe 
organized pursuant to the provisions of the Indian Reorganization Act 
of June 26, 1936-49. Stat. 1967. and is Federally recognized by the 
United States Government through the Secretary of the Interior. The 
Choctaw Nation of Oklahoma consists of ten and one-half counties in the 
southeastern part of Oklahoma and is bordered on the east by the State 
of Arkansas, on the south by the Red River, on the north by the South 
Canadian, Canadian and Arkansas Rivers, and on the west by a line 
slightly west of Durant that runs north to the South Canadian River.
    We have been operating under a compact of Self-Governance since 
1995 in the Indian Health Service/Department of Health and Human 
Service and since 1996 in the Bureau of Indian Affairs/Department of 
the Interior. The Choctaw Nation of Oklahoma believes that 
responsibility for achieving self-sufficiency rests with the governing 
body of the Tribe. It is the Tribal Council's responsibility to assist 
our community in its ability to implement an economic development 
strategy and to plan, organize and direct Tribal resources in a 
comprehensive manner which results in self-sufficiency. The Tribal 
Council recognizes the need to strengthen the Nation's economy, with 
primary efforts being focused on the creation of additional job 
opportunities through promotion and development. By planning and 
developing its own programs and building a strong economic base, the 
Choctaw Nation of Oklahoma applies its own fiscal, natural, and human 
resources to develop self-sufficiency. These efforts can only succeed 
through strong governance, sound economic development and positive 
social development.
    S. 919 remains a top priority for Self-Governance Tribes in our 
quest to get legislation enacted that will remove many of the 
administrative and impractical barriers that have persisted with Title 
IV since 1994. For more than a decade, we have developed and refined 
proposed amendments to Title IV of the Indian Self-Determination and 
Education Assistance Act (P.L. 93-638, as amended). These amendments 
would achieve consistency between Titles IV and V of the Act and 
address problems which affect the ability of Self-Governance Tribes to 
better serve our citizens. The Choctaw Nation, along with other Self-
Governance Tribal leaders, have worked tirelessly with the 
Administration and Congress on these amendments. We strongly believe it 
is time to move forward with enactment and we urge this Committee to 
support and advance S. 919.
    Since we began this effort, many Tribal leaders have testified 
before the Senate Committee on Indian Affairs (SCIA) regarding on-going 
problems implementing Self-Governance in DOI. These problems, ranging 
from inadequate funding levels to bureaucratic recalcitrance, have 
caused increased participation by new Tribes in Tribal Self-Governance 
to lessen considerably; which is unfortunate since Self-Governance has 
proven to dramatically improve the efficiency, accountability and 
effectiveness of programs and services for many Tribes and their 
citizens.
    The current law allows for delays and obstruction by the DOI which 
has resulted in frustration for Tribes throughout the Self-Governance 
implementation process. Instead of operating programs, services, 
functions and activities in an efficient and productive manner as 
originally intended and performed under the Self-Governance 
Demonstration Project, Tribes have been subjected to ``push back'' and 
recalcitrance from the DOI to fully implement the full spirit of the 
Act. This was spearheaded by the 1996 Title IV negotiated rulemaking 
process which failed and left the Tribes with a sense of urgency to 
remedy the ills that were created by the promulgation of the rules and 
contrary to the sense of Congress in enacting the legislation.
    All but a very few S. 919 provisions were negotiated and agreed to 
by Tribal and Federal representatives. The vast majority of the 
proposed amendments are not new or radical ideas--many have been 
adapted from the Department of Health and Human Services (DHHS) version 
of Self-Governance, codified as Title V of the Indian Self-
Determination and Education Assistance Act of 1975 (ISDEAA).
    In 2000, Congress enacted Title V which permanently authorized 
Self-Governance in the Indian Health Service (IHS), within DHHS. Many 
of the improvements and Tribal authority reflected in Title V remain 
absent from Title IV Bureau of Indian Affairs (BIA) program 
administration. Consequently, many Self-Governance Tribes are forced to 
operate under two separate administrative requirements, one for IHS and 
one for BIA. The proposed bill will bring Title IV into line with Title 
V.
    The lack of administrative efficiencies under Title IV--has been 
costly for Tribes in terms of time, money and loss of opportunities to 
strengthen Tribal infrastructures and develop competitive reservation 
economies. The IHS Title V amendments provide for the timely 
distribution of funding and administrative safeguards for Tribes 
aligning the implementation of executive branch regulatory authority 
with the congressional intent of the ISDEAA. Like the Title V 
amendments, S. 919 intends to clarify and expand the provisions of 
ISDEAA and streamline efficiencies and administrative provisions of the 
Act.
    There have been many studies and reports performed to evaluate BIA 
management, organizational structure and administration, as well as to 
identify and recommend remedies to improve quality, efficiency and 
cost-effectiveness, organization, functionality and performance.
    The 1999 National Academy of Public Administrators (NAPA) Report, 
\1\ stated ``. . . without major management and organizational reforms, 
the BIA will be unable both to fully meet its responsibilities to the 
1.4 million American Indians and Alaska Natives it serves and to 
operate an effective and efficient agency. BIA does not have the 
capacity to effectively perform basic Federal functions of accounting, 
property management, human resources management, procurement, and 
information resources management. Further complicating matters at the 
BIA is the fact that staff do not receive adequate training.'' The 
implementation of the recommendations in the NAPA Report commenced in 
2004.
---------------------------------------------------------------------------
    \1\ National Academy of Public Administrators Report, Study of 
Management and Administration, 1999.
---------------------------------------------------------------------------
    In 2011, the Bronner Group \2\ was engaged to perform a multi-phase 
evaluation relating to the administrative support structure of the BIA 
which included evaluating the NAPA Report. For purposes of the Bronner 
Report, the term ``support functions'' included accounting/finance, 
budget, acquisitions/contracting, property management, safety 
management, human resources, information technology, as well as 
engineering and facilities management. In March 2012 the Bronner Report 
was released and the reorganization of Indian Affairs was launched much 
to the chagrin of the Tribes.
---------------------------------------------------------------------------
    \2\ Bronner Report, A New Day for Indian Affairs, March 2012.
---------------------------------------------------------------------------
    In February 2013 the Government Accountability Office prepared a 
study on Management Challenges Continue to Hinder Efforts to Improve 
Indian Education \3\ which identified challenges within the Department 
of the Interior's Office of the Assistant Secretary--Indian Affairs 
(IA), such as fragmented administrative structures and frequent 
turnover in leadership.
---------------------------------------------------------------------------
    \3\ GAO-13-342T, February 27, 3013.
---------------------------------------------------------------------------
    I reference these reports to emphasize the critical need for 
streamlining the administrative process for Self-Governance Tribes as 
identified in S. 919 that will allow Self-Governance Tribes to maximize 
their capability to efficiently and effectively implement Self-
Governance at the reservation level. It is unfair to expect that 
excellence can be achieved by the Tribes when there is such a lack of 
administrative, program and operational structure in DOI. Removing 
these barriers will allow Self-Governance Tribes the opportunity to 
succeed where the government is failing them.
    Our experience in Self-Governance has allowed us to determine the 
best mechanisms for delivering financial resources and decisionmaking 
on our homelands. We were provided the funding to begin to plan for 
another type of reform to Self-Determination contracting and we have 
proven that we made a wise choice with Self-Governance. We made 
substantial progress under the Demonstration Project and we continue to 
advance our Tribally-driven initiative to quantum leaps today. In DOI, 
Self-Goverance has grown to include 260 Federally-recognized Tribes; 
and, in IHS there are 340 Self-Governance Tribes.
    We are humble but proud; we are strong and will continue to grow 
and succeed; but most of all, we believe that we made the right choice 
for our Tribe under Self-Governance. We need new tools to make sure we 
are refining the process, building upon the initiative and the 
government-to-government relationship so that we can successfully 
continue along this path.
    Today, S. 919 is that tool!
    Thank you.

    The Chairwoman. Thank you. Again, I appreciate all of you 
being here and your testimony. My own personal beliefs are that 
we live in a flat world. That just means with technology and 
information, you have to drive it down to the level of 
expertise where people see what the problems are, and empower 
them to deal with them. The more hierarchical you are, the more 
you are going to hold people back.
    So to me, self-governance makes total sense, and the 
progress that has been made by self-governing tribes, as I 
mentioned earlier, Alaska Native Medical Center is a great 
example of a shining institution that has dealt with a lot of 
health care problems very adequately, juxtaposed to an IHS 
delivery system, which can be definitely not innovating at the 
level that they are innovating.
    So anyway, I wanted to ask, I am going to start with you, 
Mr. Isaac. You say the Administration is, one of the questions 
I have is about the Department of Interior's refusal to enter 
into agreements unless the tribe agrees to new terms. You said 
that this Administration has not engaged in that behavior, 
which I am happy to hear, but I would like to know for the 
record, what were the Department's justifications for asking 
for long-time self-governance tribes to agree to new terms 
before continuing existing programs?
    Mr. Isaac. I would like to have my staff attorney answer 
that.
    The Chairwoman. Or he can answer that in writing.
    Mr. Isaac, I also had a question for you as it relates to 
the appraisal process. This is one of the things that your 
self-governance efforts took over that otherwise would have 
been done by the Office of Trustee, is that correct?
    Mr. Isaac. Beg pardon?
    The Chairwoman. The Tanana Chiefs Conference self-
governance compact with the Department included real estate 
appraisals. So you would, these would otherwise be done by the 
Special Trustee. So in doing these real estate appraisals, 
which is a big issue for the Committee in general, it seems 
that you were able to manage that within your own community and 
then had some success on that. Is that correct?
    Mr. Isaac. Yes. We were one of the consortia that early on 
took on the self-governance compacting. And in my opinion self-
governance allows tribes to be self-reliant. And it not only 
stop there with contracting BIA programs that include realty, 
it also should strongly consider the inclusion of National Park 
Service, Bureau of Land Management, any and all Department of 
the Interior bureau responsibilities I think should be subject 
to contracting by local tribes.
    I am confident to say that we have faced extraordinary 
circumstances that we prevailed upon and that if any contract 
survived being underfunded with contract support costs, in the 
past, I am sure that that group of people would be the ones 
that I would award contracts to.
    The Chairwoman. So do you see how you improved the 
management of those, because you were doing the appraisals or 
overseeing the real estate appraisals? Do you think that 
enabled more results as it related to settlements?
    Mr. Isaac. Yes. When we are dealing with realty issues, we 
are more successful at it in that we close out cases, pending 
files and this stuff more rapidly than it had been in the past. 
Realty is something that carries trust responsibility along 
with it, and no doubt it is the Federal trust responsibility 
that is transferred to the consortia, TCC. And we honor that, 
we do the best we can to be more prompt and more effective in 
the delivery of that service.
    The Chairwoman. Thank you.
    Senator Tester?
    Senator Tester. Thank you, Madam Chair.
    I would just say, on the land buyback issue, and I know the 
Department probably wants to do it, but I really think we can 
get more bang for the buck contracting that out to the local 
level, you guys know what the land is worth, you know much more 
about the landscape if you are Salish living in Montana than 
somebody back here.
    Now if I was going to say, I am not sure I would want the 
Salish to do the contract for the Oklahoma tribe. But you guys 
ought to do your own.
    Anyway, that is off topic here for a bit, but maybe not.
    Mr. Allen, I think that just about everybody on this 
Committee agrees that self-governance is a positive thing, and 
it is undeniable that Indian Country has had some difficulty, 
and reasonably so in certain areas. Could you give me an idea 
on some areas in which you believed increased systematic 
support from the Federal Government would make a positive 
impact?
    Mr. Allen. Some areas that we have taken over?
    Senator Tester. Or some areas that maybe haven't done so 
well that additional help from the Federal Government would 
help.
    Mr. Allen. I think the best way to respond to that question 
is that as the tribes take over programs, A, B and C, it could 
be a natural resources program, law enforcement program, et 
cetera. So as a general observation, our analysis is that we 
are severely underfunded categorically. And so what we have 
been doing over the years is documenting what that underfunding 
level is. You can take these programs like natural resource 
management, wouldn't matter whether it was grazing, timber, 
fisheries, et cetera, you will see that the tribe are taking 
those, the Federal component, and then more often than not have 
added our own resources to supplement in order to get it 
handled correctly.
    Senator Tester. So a little more funding so you wouldn't 
have to supplement those with others that should be used in 
some other program?
    Mr. Allen. Basically, for the most part, tribes are 
subsidizing Federal functions. Categorically. You can go across 
every one of them.
    Senator Tester. I appreciate that.
    Chairman Trahan, there have been some recent setbacks in 
negotiations in the annual funding agreement between your tribe 
and Fish and Wildlife Service over the management of the Bison 
Range Complex. The work has been done, I think it was a 
positive step in the right direction. I would like to hear some 
more on the National Bison Range Complex and how Indian Country 
can work with the U.S. Government to increase access and 
appreciation for public lands, such as the National Bison 
Range.
    Mr. Trahan. Madam Chair, Senator Tester, I would gladly 
like to revert that to one of my staff.
    Senator Tester. You can, or you can respond in writing on 
that. That would be fine, that would be better yet.
    In your testimony you talked about, and this is for you 
again, Chairman Trahan, you met with the Fish and Wildlife 
Service recently, maybe even today. And you continue to work on 
negotiating the annual funding agreement. I think everybody on 
this Committee wants to see that through, I know you guys want 
to see it through.
    Could CSKT be able to provide the Committee with a progress 
report in early summer, where things stand on the Bison Range 
agreement?
    Mr. Trahan. Sure. We would be happy to do that in the early 
spring to late summer.
    Senator Tester. Whatever is appropriate.
    Mr. Trahan. And we would like to also see if the service 
would like to do it jointly.
    Senator Tester. Say that again?
    Mr. Trahan. I said, we would also like to ask the Service 
if they would do a joint briefing with us.
    Senator Tester. That would be good.
    The Salish Kootenai tribes have some experience with 
Mission Valley Power. As we talked about earlier, I think the 
work you have done there is pretty impressive. I think it 
provides a model of how Indian Country can really work with 
State and local governments and do it in a way that I think 
helps everybody.
    Could you tell a little bit more about how operating this 
public utility has affected the tribe's relationship with the 
surrounding community?
    Mr. Trahan. We could do that in writing, but I could give 
you a short version. It has made a lot of difference within the 
community, because it has brought the communities more, they 
understand that the tribe is not trying there to hurt them, it 
is trying to be helpful to everyone. That is what it has done, 
it has kept the rates low and everything else in that 
perspective.
    So it has kind of got rid of the big scare that everybody 
thought there was there with tribes managing something like 
that.
    Senator Tester. And just out of curiosity, how much of that 
power is used on tribal lands and how much is used off of 
tribal lands? Do you know that off the top of your head?
    Mr. Trahan. I sure don't.
    Senator Tester. George, do you know that?
    Mr. Waters. Certainly a larger percentage, Senator, of the 
users are not Indians on the reservation. As I mentioned 
earlier, what we think is fascinating is that there are 
actually more non-Indians that are asking to become part of the 
project, which I think is a testimonial to how well it has been 
run.
    Senator Tester. I think it is a testimonial to the success 
and the management of it.
    I want to thank all four of the folks who testified here 
today. As we think of additional questions, we may ask you for 
some answers in writing. Thank you all for being here, thank 
you for your advocacy of self-determination.
    The Chairwoman. I want to thank the witnesses for your 
testimony today and for all of the input that you have given. 
You all represent a lot of information as it relates to the 
history of self-governance and what has been going right. Now 
we just have to formalize that so we can move more of Indian 
Country in that direction.
    So we thank you for your testimony. We look forward to 
moving this bill in the near future and seeing if we can get it 
onto the President's desk after getting it through the House of 
Representatives.
    This hearing is adjourned.
    [Whereupon, at 4:02 p.m., the Committee was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    I want to thank Senators Cantwell and Barrasso for holding this 
important hearing today to consider, S. 919, the Department of the 
Interior Tribal Self-Governance Act. Since this may be the last 
legislative hearing you two chair together, I also want to let the 
Chair and Vice Chair know how much I appreciate the bipartisan working 
relationship you have forged over the last year, as well as your joint 
work with members of this Committee, and many months of consultation 
with key stakeholders, to help advance issues of special concern to 
Native Americans.
    I want to acknowledge and applaud in particular two of your most 
important legislative collaborations: S. 919, the subject of our 
legislative hearing today; and, S. 1352, the Native American Housing 
Assistance and Self-Determination Act, voted to be reported out 
favorably by this Committee several weeks ago. I am an original 
cosponsor and strong supporter of S. 919 and S.1352, major legislative 
priorities for tribal governments and native communities across the 
nation.
    I look forward to hearing from the witnesses today. I will continue 
to work with you, other stakeholders and my colleagues to ensure that 
Congressional actions are guided by the principles of self-
determination and self-governance, and the special political 
relationship between the United States and Native Americans remains 
strong.
    Finally, as I may not have another opportunity to address you as 
Chair, I want to take this opportunity to formally thank you Senator 
Cantwell for your very able leadership of the Senate Committee on 
Indian Affairs; and, to acknowledge your proven commitment to American 
Indians, Alaska Natives and Native Hawaiians.
    I look forward to working with you in the future to help build 
stronger and more self-sufficient native communities, create much 
needed jobs, and further strengthen our national economy.
    Thank you.
                                 ______
                                 
   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    I would like to thank Chairwoman Cantwell for her leadership on S. 
919, the Department of the Interior Tribal Self-Governance Act of 2013. 
I am proud to cosponsor this important legislation. Thank you 
Chairwoman Cantwell and Vice Chairman Barrasso for taking the time to 
hold a hearing on this legislation.
    I am glad to see my friend Assistant Secretary for Indian Affairs, 
Kevin Washburn, here today. I understand that he will share a message 
of support from the administration. I would like to thank him and his 
team for working with tribes from across the country to reach agreement 
on the provisions in this bill.
    Self-governance has proved to be a powerful asset to tribal 
nations. Since the enactment of the Indian Self-Determination and 
Education Assistance Act in 1975, tribes have shown the great 
accomplishments that can be made through self-governance.
    Self-governance allows tribes to take control of the programs 
tribal members depend on, and to better direct the future of their 
communities. But beyond empowerment, self-governance has direct impact 
on tribal economies and employment.
    As many have noted, A 2004 GAO report showed that tribes engaged in 
self-governance had greater gains in employment and per capita income 
levels from 1990 to 2000 compared with other tribes.
    S. 919 seeks to improve self-governance contracting through the 
Department of the Interior. I believe this is an important step for 
tribes and the administration, and I am proud to be a cosponsor of the 
bill.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                             Ronald Trahan
    Question 1. Chairman Trahan, there have been some recent setbacks 
in negotiations in the annual funding agreement between your tribe and 
Fish and Wildlife Service over the management of the Bison Range 
Complex. The work has been done, I think it was a positive step in the 
right direction. I would like to hear some more on the National Bison 
Range Complex and how Indian Country can work with the U.S. Government 
to increase access and appreciation for public lands, such as the 
National Bison Range.
    Answer. Our FY 2009-11 Annual Funding Agreement (AFA) with the U.S. 
Fish & Wildlife Service (FWS) for the National Bison Range Complex 
(NBRC) was rescinded on procedural grounds by a federal district court 
decision in September 2010. The court did not find any problems with 
the AFA; instead, it found that FWS had not properly explained its 
invocation of a categorical exclusion under the National Environmental 
Policy Act (NEPA). After the court decision, FWS and CSKT negotiated a 
new agreement. Once we had negotiated a new draft AFA, we encouraged 
FWS to prepare an Environmental Assessment (EA) for the action in 
accordance with NEPA. The Tribal Council continues to fully support the 
preparation of an EA, but we have been frustrated by repeated delays in 
completing the process. Both FWS and CSKT have agreed that we had a 
very productive partnership at the NBRC while the last AFA was in 
place. It should therefore not take this long for us to return to that 
productive partnership. It is our hope that FWS will not announce any 
further delays and that this process will be completed this year.
    In response to the second part of Senator Tester's question, I 
believe that, if federal agencies were more open to partnering with 
Indian tribes, the Tribal Self-Governance Act could be a great tool for 
augmenting federal resources for land management. Tribes can be 
effective allies in helping raise public awareness about public lands, 
including access to those lands. Tribes can add to public lands visitor 
experiences by helping to educate people about the lands' traditional 
cultural history, uses and importance. In short, CSKT believes that, in 
certain cases, Tribal Self-Governance affords federal agencies 
unrealized opportunities to further improve public lands management.

    Question 2. In your testimony you talked about, and this is for you 
again, Chairman Trahan, you met with the Fish and Wildlife Service 
recently, maybe even today. And you continue to work on negotiating the 
annual funding agreement. I think everybody on this committee wants to 
see that through, I know you guys want to see it through. Could CSKT be 
able to provide the Committee with a progress report in early summer, 
where things stand on the Bison Range agreement?
    Answer. Sure. We would be happy to do that in the early spring to 
late summer.
    We expect that a briefing would be in order sometime this spring. 
Since the hearing, we have contacted the U.S. Fish & Wildlife Service 
and officials from its Denver Regional Office have indicated they would 
be happy to provide a joint update at that time.

    Question 3. The Salish Kootenai tribes have some experience the 
Mission Valley Power. As we talked about earlier, I think the work you 
have done there is pretty impressive. I think it provides a model of 
how Indian Country can really work with State and local governments and 
do it in a way that I think helps everybody. Could you tell a little 
bit more about how operating this public utility has affected the 
tribe's relationship with the surrounding community?
    Answer. We could do that in writing, but I could give you a short 
version. It has made a lot of difference within the community, because 
it has brought the communities more, they understand that the tribe is 
not trying there to hurt them, it is trying to be helpful to everyone. 
That is what it has done, it has kept the rates low and everything else 
in that perspective.
    So it has kind of got rid of the big scare that everybody thought 
there was there with tribes managing something like that.

    Question 3a. And just out of curiosity, how much of that power is 
used on tribal lands and how much is used off of tribal lands? Do you 
know that off the top of your head?
    Answer. Mission Valley Power (MVP) is a federally-owned electrical 
utility celebrating its 25th year under Tribally-contracted management. 
CSKT contracts MVP operations from the Bureau of Indian Affairs under 
Title I of the Indian Self-Determination and Education Assistance Act 
(ISDEAA)?. MVP provides electrical power to almost the entire Flathead 
Indian Reservation, which has a population of 28,359 according to the 
2010 census. MVP employs around 80 people, with total revenue of 
$25,876,105 in FY 2012. It should be noted that CSKT does not keep any 
of that revenue as profit--the money stays within the federal program. 
MVP does not keep track of the Indian or non-Indian status of its 
customers, but it currently services 19,400 electrical meters, serving 
over 16,500 customers. CSKT Tribal membership is currently around 7900 
people, with roughly half of that 7900 living on the Reservation. 
Consequently, and as stated at the hearing, even when taking into 
account the Reservation residents who are members of Indian tribes 
other than CSKT, MVP has more non-Indian customers than Indian 
customers.

                                  <all>

</pre></body></html>
